No. 19In the

Supreme Court of the United States
Effex Capital, LLC AND John Dittami,
Petitioners,
v.
National Futures Association, THOMAS P.
SEXTON AND JAMES P. O’HARA
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
David A. Schrader
Counsel of Record
Charles D. Krieg
Joseph N. Paykin
Paykin, Krieg & A dams, LLP
155 East 44th Street, 6th Floor
New York NY 10017
(212) 725-4423
dschrader@pka-law.com
Counsel for Petitioners
293420

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether the Seventh Circuit wrongly expanded
the doctrine of implied conflict preemption by
holding that an obstacle could form the basis
of preemption even if the obstacle is uncertain
to occur and the obstacle will not prevent a
regulator from fulfilling its duties.

2.

Whether the Commodities Exchange Act, 7
U.S.C. § 1 et seq. (the “CEA”), impliedly preempts
state law tort claims of general application
brought by an unregulated person against the
National Futures Association (the “NFA”) when
such unregulated person has no statutory remedy
under the CEA and the state law claim would not
create a concrete definable and definite obstacle
or otherwise conflict with the administration of
the NFA’s regulatory activities.

3.

Whether the regulatory actions of the NFA,
a fe de r a l ly aut hor i z e d S el f-R eg u l at or y
Organization (an “SRO”), can preempt state law
to the extent the manner of the SRO’s regulatory
action is not expressly prescribed in detail by the
grant of regulatory authority from the federal
agency.

ii
LIST OF PARTIES
A. Petitioners
Effex Capital, LLC
John Dittami
B. Respondents
National Futures Association
Thomas P. Sexton
James P. O’Hara

iii
CORPORATE DISCLOSURE STATEMENT
The Petitioners are John Dittami, an individual, and
Effex Capital, LLC, a limited liability company whose
controlling interest is owned by John Dittami and the
balance owned by the Dittami Dynasty Trust.

iv
RELATED CASE STATEMENT
Effex Capital, LLC and John Dittami, v. National
Futures Association, Thomas P. Sexton, James P.
O’Hara and John Does 1-5, and Jane Does 1-5, United
States District Court for the Northern District of Illinois,
Eastern Division, Case No. 17-cv-04245 (ARW). Judgment
was entered on April 5, 2018.
Effex Capital, LLC and John Dittami, v. National
Futures Association, Thomas P. Sexton, James P. O’Hara
and John Does 1-5, and Jane Does 1-5, United States
Court of Appeals for the Seventh Circuit, No. 18-1914.
Judgment was entered on August 3, 2019.
Petitioners John Dittami and Effex Capital, LLC
respectfully request this Court grant a writ of certiorari
to review the Decision and Order of the Seventh Circuit
Court of Appeals affirming the dismissal by the United
States District Court for the Northern District of Illinois
of Petitioners’ Amended Complaint with prejudice and
without leave to amend.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASE STATEMENT  . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE  . . . . . . . . . . . . . . . . . . . 6
1.

NFA Regulatory Regime . . . . . . . . . . . . . . . . . . . 6

2.

Underlying Events . . . . . . . . . . . . . . . . . . . . . . . . . 6

3.

District Court Proceedings  . . . . . . . . . . . . . . . . 13

vi
Table of Contents
Page
4.

Appeal to the Seventh Circuit  . . . . . . . . . . . . . . 14

REASONS FOR GRANTING THE PETITION . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vii
TABLE OF APPENDICES
Page
APP E N DIX A — OPI N ION OF TH E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
	AUGUST 13, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1a
Appendix b — memorandum opinion
and order of the united states
district court for the northern
district of illinois , ea st ern
	division, filed april 5, 2018  . . . . . . . . . . . . 30a
Appendix C — DENIAL OF REHEARING
of the united states court of
appeals FOR THE SEVENTH CIRCUIT,
	FILED OCTOBER 2, 2019 . . . . . . . . . . . . . . . . . . . . 52a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Am. Agric. Movement, Inc. v.
Board of Trade of City of Chicago,
977 F.2d 1147 (7th Cir. 1992)  . . . . . . . . . . . . . . . . . . . 14
Bernstein v. Lind-Waldock & Co.,
738 F.2d 179 (7th Cir. 1984) . . . . . . . . . . . . . . . . . . . . 19
Entergy Nuclear Vermont Yankee, LLC v.
Shumlin,
838 F. Supp. 2d 183 (U.S.D.C. Dist. Vt. 2014)  . . . . . 16
Fidelity Federal Sav. and Loan Ass’n v.
de la Cuesta,
458 U.S. 141, 102 S. Ct. 3014,
73 L. Ed. 2d 664 (1982) . . . . . . . . . . . . . . . . . . . . . . . . 15
Florida Lime & Avocado Growers, Inc. v. Paul,
373 U.S. 132, 83 S. Ct. 1210,
10 L. Ed. 2d 248 (1963) . . . . . . . . . . . . . . . . . . . . . . . . 15
Hines v. Davidowitz,
312 U.S. 52, 61 S. Ct. 399, 85 L. Ed. 581 (1941) . . . . 15
Huron Portland Cement Co v.
City of Detroit, Mich.,
362 U.S. 440, 80 S. Ct. 813,
4 L. Ed. 2d 852 (1960) . . . . . . . . . . . . . . . . . . . . . . . . . 15

ix
Cited Authorities
Page
In re: Libor Based Financial Instruments
Antitrust Litigation,
935 F. Supp. 2d 666 (S.D.N.Y. 2013)  . . . . . . . . . . . . . . 6
Jimez v. Quarterman,
555 U.S. 113, 129 S. Ct. 681,
172 L. Ed. 2d 475 (2009) . . . . . . . . . . . . . . . . . . . . . . . 20
Khalid Bin Talal Bin Abdul Azaiz Seoud v.
E.F. Hutton & Co.,
720 F. Supp. 671 (N.D. Ill. 1989)  . . . . . . . . . . . . . . . .  17
Lorillard Tobacco Co. v. Reilly,
533 U.S. 525, 121 S. Ct. 2404,
150 L. Ed. 2d 532 (2001) . . . . . . . . . . . . . . . . . . . . . . . 14
Mallen v. Merrill Lynch Futures, Inc.,
623 F. Supp. 203 (N.D. Ga. 1985) . . . . . . . . . . . . . . . . 19
McKerr v. Bd. Of Trade,
No. 12 C 5008, 2012 U.S. Dist. Lexis 1159333,
2012 WL 3544866 (N.D. Ill. Aug. 15, 2012)  . . . . . . .  17
Norfolk Southern R. Co. v. Sorrell,
549 U.S. 158, 127 S. Ct. 799,
166 L. Ed. 2d 638 (2007) . . . . . . . . . . . . . . . . . . . . . . . 20
Pacific Gas & Elec. Co. v. State Energy
Resources Conservation & Dev. Comm’n.,
461 U.S. 190, 103 S. Ct. 1713,
75 L. Ed. 2d 752 (1983) . . . . . . . . . . . . . . . . . . . . . . 14-15

x
Cited Authorities
Page
Patry v. Rosenthal & Co., Inc.,
534 F. Supp. 545 (D. Kan. 1982) . . . . . . . . . . . . . . . . . 17
Rice v. Norman Williams Co.,
458 U.S. 654, 102 S. Ct. 3294,
73 L. Ed. 2d 1042 (1982) . . . . . . . . . . . . . . . . . . . .  15, 16
Tamari v. Bache & Co.,
730 F.2d 1103 (7th Cir. 1984) . . . . . . . . . . . . . . . . . . . . 6
Wyeth v. Levine,
555 U.S. 555, 129 S. Ct. 1187,
173 L. Ed. 2d 51 (2009) . . . . . . . . . . . . . . . . . . . . . 16, 20
Statutes and Other Authorities
U.S. Const. Art. VI cl. 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
7 U.S.C. § 19  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
7 U.S.C. § 2(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . .  2, 12, 17, 18
7 U.S.C. § 2(c)(2)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
7 U.S.C. § 2(c)(2)(B)(i)(II) . . . . . . . . . . . . . . . . . . . . . . . . . 17
7 U.S.C. § 21  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 6
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
17 C.F.R. § 145.5(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

1
Petitioners Effex Capital, LLC and John Dittami
are the Plaintiffs-Appellants in the courts below. The
Respondents are National Futures Association, a selfregulatory organization organized under 7 U.S.C. §21,
Thomas P. Sexton and James P. O’Hara, DefendantsAppellees in the Courts below.
OPINIONS BELOW
The Decision and Order of the United States Court
of Appeals for the Seventh Circuit in Effex Capital and
John Dittami v. NFA et al., No. 18-1914 (7th Cir. August
13, 2019) is reprinted in Appendix A. The Order of the
Seventh Circuit denying Effex’s Petition for Rehearing
or, In the Alternative for Rehearing En Banc (7th Cir.
October 2, 2019) is reprinted in Appendix C.
The Decision and Order affirmed an Order dated
April 5, 2018 by the United States District Court for the
Northern District of Illinois (“USDC”) in Effex et al. v.
NFA et al, No. 17-cv-04250 granting NFA’s motion to
dismiss is reprinted in Appendix B.
JURISDICTION
The Seventh Circuit Court of Appeals issued its
judgment on August 13, 2019, and denied John Dittami’s
and Effex Capital, LLC’s petition for rehearing en banc
on October 2, 2019. This Court has jurisdiction under 28
U.S.C. §1254(1).

2
RELEVANT STATUTORY PROVISIONS
7 U.S.C. 2(a)(1)(A)
The Commission shall have exclusive jurisdiction,
except to the extent otherwise provided in the Wall Street
Transparency and Accountability Act of 2010 (including an
amendment made by that Act) and subparagraphs (C), (D),
and (I) of this paragraph and subsections (c) and (f) of this
section, with respect to accounts, agreements (including
any transaction which is of the character of, or is commonly
known to the trade as, an “option”, “privilege”, “indemnity”,
“bid”, “offer”, “put”, “call”, “advance guaranty”, or “decline
guaranty”), and transactions involving swaps or contracts
of sale of a commodity for future delivery (including
significant price discovery contracts), traded or executed
on a contract market designated pursuant to section 7 of
this title or a swap execution facility pursuant to section
7b–3 of this title or any other board of trade, exchange,
or market, and transactions subject to regulation by the
Commission pursuant to section 23 of this title. Except as
hereinabove provided, nothing contained in this section
shall (I) supersede or limit the jurisdiction at any time
conferred on the Securities and Exchange Commission or
other regulatory authorities under the laws of the United
States or of any State, or (II) restrict the Securities
and Exchange Commission and such other authorities
from carrying out their duties and responsibilities in
accordance with such laws. Nothing in this section shall
supersede or limit the jurisdiction conferred on courts of
the United States or any State.

3
U.S.C.A. Const. Art. VI cl.2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all Treaties
made, or which shall be made, under the Authority of the
United States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound thereby,
any Thing in the Constitution or Laws of any State to the
Contrary notwithstanding.
INTRODUCTION
This petition seeks to have this Court find that: (i)
“obstacle preemption” does not exist when an alleged
obstacle is uncertain to occur and does not prevent an SRO
from fulfilling its regulatory function; (ii) the CEA does
not preempt state law tort claims of general application
brought by an unregulated person against NFA when such
unregulated person has no statutory remedy under the
CEA and the state law claim would not create a concrete
definable and definite obstacle or otherwise conflict with
the administration of NFA’s regulatory activities; and (iii)
an SRO’s regulatory activities do not preempt state law
to the extent the SRO’s regulatory action is not expressly
prescribed in detail by the grant of regulatory authority
from the governing federal agency.
By way of specifics, in connection with entering
into and publishing an enforcement settlement with a
regulated person under the CEA, NFA: (a) disclosed
confidential information of Effex Capital, LLC (“Effex”)
and its principal John Dittami (“Dittami” collectively
referred to with Effex as the “Petitioners”), both of
which were unregulated persons and non-parties to the

4
enforcement proceeding; and (b) published false and
defamatory statements about Petitioners.1 (Dkt 45, ¶¶ 21,
60-62). NFA had the ability to undertake its regulatory
function without disclosing Petitioners’ confidential
information and without publicly defaming Petitioners
with false disclosures that resulted in the destruction of
Petitioners’ business.
After suffering injury from NFA’s conduct, Petitioners
sought to pursue state law statutory and common law tort
claims against NFA for its conduct. The District Court
dismissed Petitioners’ claims finding that they had failed
to exhaust “administrative remedies” that Petitioners
actually did not have as non-members of NFA. (Appendix
B.) Effex appealed to the Seventh Circuit Court of
Appeals (hereinafter the “Seventh Circuit”). Rather than
addressing the grounds raised in the decision below, the
Seventh Circuit sustained the dismissal of Petitioners’
state law claims of general application by applying the
alternative theory of preemption. (Appendix A)
The decision by the Seventh Circuit is neither in
conformity with the CEA or the doctrine of preemption.
The CEA contains no express preemption provision, and
the Seventh Circuit engaged in a tortured analysis to find
that Petitioners’ state law claims of general application
could potentially obstruct NFA’s ability to regulate,
thereby requiring them to be preempted. The Seventh
Circuit’s preemption holding erroneously contends
that Petitioners’ state law claims would interfere with
NFA’s regulatory function; and such finding was made
1. NFA is an SRO which regulates the commodities industry.
NFA was granted legal authority pursuant to the CEA.

5
by the Seventh Circuit without any detailed analysis
or a developed record on this issue. The holding also
ignores the fact that: (i) NFA had the full ability to
conduct its regulatory enforcement function without
disclosing Petitioners’ confidential information or
making defamatory statements about Petitioners; and
(ii) while NFA was delegated the function of regulatory
enforcement, the specific manner of action by NFA which
caused injury to Petitioners was not itself mandated under
NFA’s regulatory authority—such that NFA could have
satisfied its regulatory obligation without injuring the
Petitioners. In essence, the holding improperly expands
the definition of “obstacle” from an actual impediment to
a potential impediment so it would eliminate the actual
impossibility standard to establish a conflict; and also
improperly holds that NFA’s discretionary manner of
implementing its regulatory function creates preemption
even if NFA could have implemented its regulatory
function in a less intrusive manner consistent with its
grant of authority as an SRO.
Under the Seventh Circuit’s decision, Court’s would
be given carte blanche to expand preemption to prevent
almost all state court legal action against an SRO for any
activity merely because the activity fulfills a regulatory
function—even when such activity could have been
conducted in a less intrusive manner while maintaining
the regulatory function. Preemption requires a greater
showing and the Seventh Circuit drastically lessened
the standard for obstacle conflict preemption so that the
party’s burden for preemption went from extraordinary
to minimal. If not reversed, this new standard will result
in the dismissal of many heretofore viable claims. As a
result, the Seventh Circuit’s decision and order should
be reversed.

6
STATEMENT OF THE CASE
1. NFA Regulatory Regime
Congress enacted the CEA “to ensure fair practice
and honest dealings on commodity exchanges as well as
to protect those who could be injured by unreasonable
fluctuations in commodity prices.” Tamari v. Bache
& Co., 730 F.2d 1103, 1106 (7th Cir. 1984); In re: Libor
Based Financial Instruments Antitrust Litigation,
935 F.Supp.2d 666, 697 (S.D.N.Y. 2013). To facilitate
this objective, the CEA authorized the creation of selfregulatory organizations (“SRO’s) pursuant to which NFA
gains its authority. (See 7 U.S.C. §21.) The importance of the
CEA should not be underestimated as the CFTC estimated
the “2019 notional value of U.S. derivative markets was $27
trillion for U.S. futures and $353 trillion for U.S. Swaps.”2
2. Underlying Events
Effex, has been managed and controlled by Dittami
since its inception. Effex is an institutional over the
counter (“OTC”) foreign exchange (“FX” or “Forex”)
currency liquidity provider engaged solely in transactions
with other eligible contract participants (“ECP’s”).
(Appendix A, pg. 8). In other words, Effex only transacts
business with financial institutions or highly capitalized
trading counterparties. Effex has never been a member
of Defendant-Respondent National Futures Association
(“NFA”) or subject to its jurisdiction. 3(Appendix A, pg. 8).
2. Message from the Chairman, Heath P. Tarbert, November
7, 2019 at https://www.cftc.gov/About/CFTCReports/index.htm
3. NFA is a self-regulatory organization (“SRO”) which
regulates commodities and futures trading and is overseen by

7
On February 7, 2017, NFA concluded an investigation
(“NFA Investigation”) of Forex Capital Markets, LLC
(“FXCM”), Ornit Niv (“Ornit”), Drew Niv (“Drew”)
and William Adhout (“Adhout” collectively referred to
with FXCM, Ornit, Drew and William as the “FXCM
Defendants”). At the end of its investigation, NFA
simultaneously issued and published a regulatory
complaint (“NFA Complaint,” Dkt. 13, pg. 7-30), a
decision (“Consent Order,” Dkt. 13, pg. 32-36), a narrative
(“Narrative,” Dkt. 13, pg. 38-41) and a release regarding
the Consent Order (“Release,” Dkt. 13, pg. 43, collectively
referred to with the NFA Complaint, Consent Order and
Narrative as the “NFA Publications”). The simultaneous
publishing of the NFA Complaint and Consent Order, was
done as a shortcut to resolve NFA’s regulatory claims
against the FXCM Defendants who were NFA members
with the NFA Publications constituting the paperwork in
which NFA implemented its settlement with the FXCM
Defendants. Notably, the Consent Order did not result
from a trial or hearing, but was a document agreed to by
NFA and the FXCM Defendants as part of their agreed
settlement. The Petitioners were not a party to any of
the NFA Publications. Although the Consent Order was
published making purported findings, in fact, the FXCM
Defendants “neither admitted nor denied the allegations
of the Complaint.” (Dkt. 13, pg. 34). In addition, the
Consent Order – while making purported findings about
the Petitioners - did not even indicate that Petitioners
were not parties to the proceeding.4 Nonetheless, the
the United States Commodities Futures Trading Commission
(“CFTC”)(Appendix B, pg. 1).
4. Notably, the CFTC after investigating Appellants did not
institute any proceedings against Appellants.

8
FXCM Defendants and NFA agreed upon the terms of
the settlement set forth in the Consent Order.
The specific naming of Petitioners in the Consent
Order settling charges against the FXCM Defendants
constituted a stark departure from NFA’s typical practice
in its enforcement actions (complaints, releases, decisions
and narratives) in which NFA rarely, if ever, makes
unopposed and unappealable findings or references
about a non-NFA-member non-party over whom NFA
has no jurisdiction. (Dkt. 66-4). Notwithstanding that
Petitioners were neither members of NFA nor parties to
the NFA proceeding, the NFA Publications purported
that NFA had investigated Effex (see paragraph 16 of
the NFA Complaint which states: “NFA commenced an
investigation about Effex and its involvement with FXCM
in 2013”)(Dkt. 13, pg. 11); and NFA referenced Effex and/
or Dittami (its owner) in 19 of the 22 paragraphs in Count
I of the NFA Complaint (Dkt.13 pg. 15-20).
Even to the extent that NFA may have believed
these statements about Petitioners were true, Effex
was never apprised of any investigation and no one from
Effex was ever interviewed. (Dkt. ¶¶ 39-43, 45, 52, 5455 ). Effex was also not a participant or subject of the
regulatory enforcement proceeding against FXCM and
its principals. It should also be noted that there was
no evidentiary hearing in the enforcement proceeding
against FXCM since FXCM’s case was disposed of by a
negotiated resolution. (Dkt. 13, pg. 32-36). Thus, even if
there was a contention that Petitioners had committed
some impropriety (again outside of NFA’s jurisdiction),
Petitioners were not a party to any proceeding and did not
present any evidence or any defense against any allegation
of impropriety. (Appendix B, pg. 3).

9
The NFA Complaint incontrovertibly focused in large
part on Effex and contained many false, misleading and
defamatory statements (the “False and Defamatory
Statements”) regarding Petitioners, which collectively
made it appear that Petitioners were guilty of fraud
and had violated NFA Rule 2-4 which requires liquidity
providers to follow just and equitable principles of trade.
The False and Defamatory Statements include, but are
not limited to Effex: (a) was “supported and controlled by
FXCM” (Dkt. 13, pg. 11)5; (b) “engaged in abusive execution
practices that denied FXCM’s retail customers favorable
price improvement” (Dkt. 13, pg. 11); and (c) was “what
amounted to a dealing Desk” and profited when customers
lost money (Dkt. 13, pg. 39). The NFA Complaint also
disclosed Petitioners’ confidential information constituting
trade secrets (“Trade Secrets”) which are the foundation
of Effex’s trading strategy and algorithms.6
The majority of the False and Defamatory Statements
were also recited in the Narrative and Consent Order.
These statements were false because:

5. By stating Effex was owned and controlled by FXCM,
NFA misled the public into believing that Effex violated the same
statutes and regulations as if it was the same as the member,
FXCM.
6. In response to a subpoena issued by the CFTC, Appellants
provided CFTC with numerous documents (“CFTC Docs”) which
were properly marked privileged and confidential. In addition,
Dittami testified in CFTC’s private investigation and the
transcript of his testimony (“JD Transcript”) should have been
afforded confidential treatment. Appellants believe the CFTC
Docs and JD Transcript were provided to NFA (Dkt. 7-1, ¶23).

10
(i) Effex was solely managed and controlled by
Dittami;
(ii) Effex never shared profits with FXCM but
rather had a written contractual per volume
pay for flow agreement with FXCM;
(iii) Effex took all risk in its trades;
(iv) Effex paid its own expenses;
(v) Effex never had access to data that was
unavailable to other liquidity providers,
such as FXCM’s customer positions; and
(vi) Effex obtained order f low because it
provided best price and execution and its
superlative execution services added in
excess of $100,000,000 dollars in execution
benefit to FXCM relative to the competing
prices offered FXCM by its other competing
liquidity providers.7
(Dkt. 7-1, ¶¶10, 11, 12, 15 and 28).
Petitioners filed a complaint against NFA for the
injury caused to them. Petitioners contended in their
complaint against NFA (as amended) (“Petitioners’
Complaint”) that after NFA published these false and
7. Effex’s providing such benefits necessarily meant it won
a tremendous volume of business. This was obviously to the
detriment of NFA members who were thus unable to process such
transactions.

11
defamatory statements and disclosed its trade secrets,
Petitioners’ business was financially ruined leading to the
cessation of Petitioners’ operations. (Dkt 45, ¶¶ 77-83).
Since Petitioners were not parties to any NFA proceeding,
they had no avenue to appeal NFA’s conduct or to pursue
any other relief post-issuance of the Consent Order. 8
Petitioners’ Complaint also alleged that NFA’s
publication of the False and Defamatory Statements was
an intentional act by NFA to: (i) attempt to regulate Effex
(which is not subject to NFA’s jurisdiction) (Dkt. 20, pg.
1); (ii) terminate and destroy Effex’s (a non-registrant)
business (Dkt. 20, pg. 1); (iii) promote the public perception
that NFA policed usage of “last look/hold timer”9; (iv)
force all retail forex trading to be conducted on exchange
to generate revenue for NFA and its member firms. (Dkt.
7-1, ¶43); and (v) benefit its member firms that competed
with Effex.10 (Dkt. 7-1, ¶43).
NFA’s publication of the False and Defamatory
Statements occurred outside of its jurisdiction and
constituted ultra vires acts beyond the scope of its legal
authority and a de facto regulation and conviction of
Petitioners without providing them with the opportunity to
8. Even assuming arguendo that Appellants had a right to
appeal to CFTC that should not preempt their pursuing state law
claims which provide for damages not available under the CEA.
9. Concurrently, NFA condoned and permitted the use of
“last look/hold timer” by many of its highest paying members,
some of whom had seats on NFA’s board (Dkt. 7-1, §41).
10. NFA generates a fee for all on exchange retail forex
trading but has no income from off exchange retail forex trading
(Dkt. 66, ¶8).

12
protect Petitioners’ economic interests, defend themselves
against false allegations, or otherwise be heard.
What is of key importance is that NFA’s publication
of the False and Defamatory Statements via the
NFA Publications was unnecessary to prosecute or
settle NFA’s charges against FXCM. NFA could have
undertaken its regulatory function without making the
false and defamatory statements and without publicly
releasing Effex’s confidential information. Thus, there is
no “conflict” to satisfy a finding of preemption. It should
be noted that the Seventh Circuit Court of Appeals also
decided that preemption existed without even a developed
record to support their conclusions. Additionally, to the
extent that Effex’s contention is true that NFA intended
to try to regulate Effex through this process without
proper jurisdiction, this ultra vires function should not
be subject to preemption. (Dkt. 7-1, ¶31 ).11
11. The genesis of NFA’s action against Appellants arose
from NFA’s prior effort to unilaterally expand its congressionally
created statutory jurisdiction beyond retail forex firms to
include congressionally exempt firms that provide liquidity to
retail brokers (i.e. Effex) over whom NFA had no jurisdiction.
Notably, NFA had unsuccessfully lobbied Congress to grant it the
authority to regulate ECP’s trading solely for their own account
with other ECP’s. (Dkt. 66, ¶6). At the time NFA issued the False
and Defamatory Statements, Effex was one of, if not the only,
unregistered United States entity pricing an NFA Registered
Foreign Exchange Dealer (“RFED”) under the narrow ECP to
ECP Congressionally delegated exemption pursuant to 7 U.S.C.
§(2)(c)(2)(B). (Dkt. 66, ¶4). Failing to obtain jurisdiction over Effex
via court or Congress, NFA utilized the FXCM proceeding as a
vehicle to de facto regulate the Unicorn, known as Effex, since
it had no delegated authority to oversee Effex. Interestingly,
FXCM’s transactions were outside of the exclusive jurisdiction
set forth in 7 U.S.C. §2(a)(1)(A).

13
3. District Court Proceedings
Subsequent to NFA’s publication of the False and
Defamatory Statements, Petitioners commenced this
action asserting Counts seeking monetary relief for: (i)
defamation; (ii) violation of the Illinois Trade Secret Act
(“ITSA”); (iii) interference with business relations; (iv)
interference with economic advantage; and (v) failure to
provide due process. In addition, both the due process
claim and the defamation claim sought injunctive relief
ordering the removal of the NFA Complaint, Consent
Order, Narrative and Release from NFA’s website, or, in
the alternative, to strike all references to Petitioners and
their trade secrets, or conduct a name clearing hearing.12
(Dkt 45, pg 29-31). This injunctive relief sought a remedial
step to remove the offensive matter while allowing NFA
to maintain the necessary elements in its settlement
documentation that would implement its regulatory action
and function.
NFA moved to dismiss Petitioners’ Complaint arguing
that: (i) Petitioners failed to exhaust their administrative
remedies prior to filing the Complaint; (ii) Petitioners’
claims were barred by the doctrine of immunity; and (iii)
Petitioners’ state law claims were preempted by the CEA.
On April 5, 2018, the District Court issued the Order (see,
Appendix B) granting NFA’ motion to dismiss holding
that Petitioners failed to exhaust their administrative
remedies.

12. Effex recognizes that some of these injunctive requests
may be preempted – without regard to the preemption of monetary
claims against the NFA.

14
4. Appeal to the Seventh Circuit
Petitioners appealed to the Seventh Circuit which
affirmed the District Court’s decision; however, rather
than affirming based upon the holding that Petitioners
failed to exhaust their administrative remedies, the
Seventh Circuit affirmed on the alternative ground of
preemption. Petitioners’ request for a rehearing was
denied by the Seventh Circuit Court of Appeals, and
for the reasons set forth below, Petitioners seek leave to
appeal to the United States Supreme Court.
REASONS FOR GRANTING THE PETITION
The Seventh Circuit’s holding has improperly
expanded preemption in a manner that would preempt
any state law that might potentially infringe on an SRO’s
activities even when the SRO could have performed its
functions consistent with its enabling regulations. If not
overturned, this broad new test will likely result in the
preemption of claims which previously would have been
viable.
The federal preemption doctrine stems from the
Supremacy Clause of the Constitution pursuant to which
Courts can invalidate state laws which infringe on areas
Congress expressly or impliedly reserved for itself.
Lorillard Tobacco Co. v. Reilly, 533 U.S. 525, 541, 121
S.Ct. 2404, 150 L.Ed.2d 532 (2001); Am. Agric. Movement,
Inc. v. Board of Trade of City of Chicago, 977 F.2d 1147,
1154 (7th Cir. 1992). Preemption may: (a) arise from
express statutory language (Pacific Gas & Elec. Co. v.
State Energy Resources Conservation & Dev. Comm’n.,
461 U.S. 190, 203, 103 S.Ct. 1713, 1721-22, 75 L.Ed.2d 752

15
(1983)), or (b) be implied by either: (i) “Field Preemption”
which requires the Court to determine the depth and
breadth of a congressional scheme that occupies the
legislative field is “so pervasive as to make reasonable the
inference that it left no room for the States to supplement
it” (Fidelity Federal Sav. and Loan Ass’n v. de la Cuesta,
458 U.S. 141, 153, 102 S.Ct. 3014, 73 L.Ed.2d 664 (1982));
or (ii) a conflict between the state common law claim and
a congressional enactment. Florida Lime & Avocado
Growers, Inc. v. Paul, 373 U.S. 132, 142-43, 83 S.Ct. 1210,
10 L.Ed.2d 248 (1963). Conflict preemption can only be
found if it is either: (i) impossible to comply with both state
and federal law; (ii) or a state law “stands as an obstacle
to the accomplishment and execution of the full purposes
and objectives of Congress.” Hines v. Davidowitz, 312
U.S. 52, 67, 61 S.Ct. 399, 85 L.Ed. 581 (1941).
Since there is no express conflict between Petitioners’
state law claims (they are of general application) and the
language of the CEA, the Seventh Circuit’s application
of conflict preemption must be based upon a finding
that the application of the state law creates an obstacle
to the implementation of the federal law. Findings of
conflict preemption should not be taken lightly since the
“teaching of this Court’s decisions . . enjoin[s] seeking
out conflicts between state and federal regulation where
none clearly exists.” Huron Portland Cement Co v. City
of Detroit, Mich., 362 U.S. 440, 446, 80 S.Ct. 813, 817, 4
L.Ed.2d 852 (1960). However, neither a hypothetical nor
a potential conflict is sufficient basis to find the state
statute preempted. Rice v. Norman Williams Co., 458
U.S. 654, 659, 102 S.Ct. 3294, 3299, 73 L.Ed.2d 1042
(1982). The standard is heightened for a court to find
a law of general application constitutes an obstacle.

16
Entergy Nuclear Vermont Yankee, LLC v. Shumlin,
838 F.Supp.2d 183, 226 (U.S.D.C. Dist. Vt. 2014). In this
instance, NFA’s position which purportedly satisfied the
obstacle test was merely hypothetical and the Seventh
Circuits’ rudimentary analysis did not and could not
show an actual conflict or obstacle. The Seventh Circuit
disregarded applicable precedent since the decision does
not, and cannot, identify any direct way in which Effex’s
state law claims interfered with NFA’s regulatory duties
or regulatory function. More specifically, the Seventh
Circuit contended that generic state law claims of general
application should be preempted if they could possibly
have an impact on a regulator even if the Court is aware
that the impact: (i) cannot be identified; and (ii) would
not overturn the regulators’ decision or change the rules
and regulations for its future actions. Such hypothetical
obstacle is clearly insufficient for a finding of preemption.
Rice v. Norman Williams Co., 458 U.S. at 659.13 Moreover,
the only possible impact on NFA is that Petitioners’ state
law claims challenge an improper or ultra vires act of the
regulatory body as it relates to an unregulated person.
Since the challenge would not impact the discipline against
the regulated members, the FXCM Defendants, it cannot
be a conflict sufficient to support a finding of preemption.
The Seventh Circuit’s finding that this purported
conflict requires preemption is also contradicted by the
savings clause contained in the CEA (“Savings Clause”)
which specifically preserves state law claims. To wit:
“[n]othing in this section shall supersede or limit the
13. Currently there is a movement to limit the doctrine of
implied preemption. Wyeth v. Levine, 555, U.S. 555 587, 129 S.Ct.
1187, 173 L.Ed.2d 51 (2009).

17
jurisdiction conferred on courts of the United States or
any State.” 7 U.S.C. §2(a)(1)(A). Thus, the clear language
of the statute shows Congress had no intent to preclude
state law claims. McKerr v. Bd. Of Trade, No. 12 C 5008,
2012 U.S. Dist. Lexis 1159333, *14-17, 2012 WL 3544866,
at *5–6 (N.D. Ill. Aug. 15, 2012). Khalid Bin Talal Bin
Abdul Azaiz Seoud v. E.F. Hutton & Co., 720 F. Supp. 671,
680 (N.D. Ill. 1989); Patry v. Rosenthal & Co., Inc., 534 F.
Supp. 545, 551 (D. Kan. 1982).
The applicability of the Savings Clause is reinforced
by a careful review of the CEA which conclusively shows
that the Seventh Circuit’s holding directly contradicts
Congressional intent. First, Effex exclusively engaged
in transactions with other ECP’s which transactions are
specifically exempted from the CEA (see 7 U.S.C. §2(c)(2)
(B)(i)(II)), and therefore Congress expressly intended to
exempt Effex from NFA’s jurisdiction. Second, by de facto
regulating Effex and forcing it to cease operations, NFA
acted in an anti-competitive manner thereby conflicting
with its Congressional mandate to operate in the least anticompetitive manner as required by 7 U.S.C. §19. Third,
by disclosing Petitioners’ trade secrets, NFA violated
its privacy obligations.14 In sum, the aforementioned
statements, individually and collectively show Congress
did not intend to preempt Petitioners’ claims or state law
claims of general applications. Thus, it is clear that the
Seventh Circuit impliedly preempted Petitioners’ claims in
contravention of express Congressional intent evidenced
by both the Savings Clause and NFA’s lack of jurisdiction
over Petitioners’ forex trading.
14. 17 C.F.R. § 145.5(d) precludes the disclosure of “trade
secrets” and since the obligation already exists under federal law,
it cannot conflict with similar state laws.

18
In undertaking its regulatory actions in this case,
NFA could have entered into the Consent Order without
revealing the Trade Secrets, identifying Appellants or
making the Defamatory Statements. Thus, the Seventh
Circuit wrongfully expanded the scope of conf lict
preemption under the CEA to preempt state law claims
of general application brought by a non-member, nonparty where such claims merely reference an underlying
disciplinary proceeding but have no impact on the
underlying disciplinary proceeding against the SRO
member. The inclusion of the Defamatory Statements was
neither relevant nor necessary to the Disciplinary Acton
and Consent Order, and prosecuting Appellants’ state law
claims of general application do not require a modification
to the Consent Order. Indeed, because the state law claims
are of general application they necessarily do not intend
to effect how NFA performs its regulatory functions
and duties. This broad holding upends existing law and
impinges on the state’s rights reserved to them under the
Constitution and the savings clause in the CEA. 7 U.S.C.
§2(a)(1)(A). Taken to its logical conclusion the Decision
precludes any subsequent action which quotes or relies
on statements from a prior administrative proceeding
regardless of whether such subsequent action affects the
outcome of the hearing. Thus, Petitioners’ claims would
have no broad effects on NFA’s ability to regulate, would
not create binding precedent for any future disciplinary
proceedings, and would not modify the findings against
the FXCM Defendants.
To the extent, the 7th Circuit found that Petitioners’
requests for injunctive relief could have interfered with
NFA’s ability to regulate, such argument is a red herring.
Only the due process and defamation counts sought

19
injunctive relief rendering such argument irrelevant.
Even assuming arguendo all Petitioners’ counts sought
injunctive relief, such requests are not endemic to
Petitioners’ claims which could proceed solely for monetary
relief without seeking injunctive relief – the request for
injunctive relief does not constitute an element of any of
Petitioners’ counts. At worst, the Court could merely find
that injunctive relief would be improper while allowing
the monetary claims to proceed. Accordingly, NFA has
no serious interest to protect via preemption.
If left intact, the Decision: (i) creates a road map for
SRO’s to commit willful, intentional or negligent torts with
impunity under the alleged auspices of an investigation
knowing that no viable claims can be filed against them
by non-member, non-parties; and (ii) infringes on States
constitutional power to protect their citizens. More
specifically, NFA can act with impunity by cloaking its
clearly anticompetitive actions designed to benefit its
member firms under the guise of a legitimate disciplinary
proceeding. This is inapposite of current law. To wit: in
similar circumstances Courts have found if the application
of state law only affects the relationship between brokers
and investors or other individuals involved in the market
then there is no preemption. Mallen v. Merrill Lynch
Futures, Inc., 623 F. Supp. 203, 205 (N.D. Ga. 1985);
Bernstein v. Lind-Waldock & Co. 738 F.2d 179, 184-85
(7th Cir. 1984). The logic underpinning such decisions also
applies to Petitioners’ state law claims as they do not have
any impact on the underlying proceeding against FXCM
– they do not require a change in the substance of the
decision, they do not require the decision be revoked, and
they do not impact the terms of the settlement between
NFA and FXCM.

20
The Courts should enforce the statutory language
as written and not expand it to fit its purposes. Jimez v.
Quarterman, 555 U.S. 113, 129 S.Ct. 681, 172 L.Ed.2d
475 (2009). To do otherwise could “frustrate rather than
effectuate legislative intent”. Wyeth v. Levine, 555 U.S.
at 601 (citing Norfolk Southern R. Co. v. Sorrell, 549
U.S. 158, 127 S.Ct. 799, 166 L.Ed.2d 638 (2007). In this
instance the CEA contains an express savings clause
which indicates the Seventh Circuits’ Order actually
“frustrate rather than effectuate legislative intent.” Id.
If not reversed the Seventh Circuit’s decision will extend
the doctrine of conflict preemption so that almost any state
law claim would be preempted.
CONCLUSION
As a result of the foregoing, Petitioners respectfully
request that this Court grant their writ of certiorari
and permit briefing and arguments on the Questions
Presented in this Petition.
				

Respectfully submitted,
David A. Schrader
Counsel of Record
Charles D. Krieg
Joseph N. Paykin
Paykin, Krieg & A dams, LLP
155 East 44th Street, 6th Floor
New York NY 10017
(212) 725-4423
dschrader@pka-law.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED AUGUST 13, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-1914
EFFEX CAPITAL, LLC, et al.,
Plaintiffs-Appellants,
v.
NATIONAL FUTURES ASSOCIATION, et al.,
Defendants-Appellees.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-04245 — Andrea R. Wood, Judge.
November 29, 2018, Argued
August 13, 2019, Decided
Before Flaum, Ripple, and M anion, Circuit Judges.
Ripple, Circuit Judge. Effex Capital, LLC (“Effex”),
brought this action alleging that the National Futures
Association (the “NFA”) had defamed it in documents
related to a settlement between the NFA and one of

2a
Appendix A
its members, Forex Capital Markets, LLC (“FXCM”).1
It sought injunctive relief and damages. The district
court dismissed the action, holding that Effex had failed
to exhaust its administrative remedies. 2 Effex timely
appealed the district court’s dismissal. 3
1. The district court had jurisdiction to adjudicate Effex’s due
process claims under 28 U.S.C. § 1331 and its state-law tort claims
under 28 U.S.C. § 1332.
2. The court’s dismissal was without prejudice to Effex’s
pursuing its administrative remedies and then seeking review of its
properly exhausted claims.
3. Our jurisdiction is premised on 28 U.S.C. § 1291. In most
cases, dismissal without prejudice “does not qualify as an appealable
final judgment because the plaintiff is free to re-file the case.”
Larkin v. Galloway, 266 F.3d 718, 721 (7th Cir. 2001). This rule,
however, is not without exception. A dismissal without prejudice
is deemed final for the purposes of § 1291 where no amendment to
the complaint “could resolve the problem.” Kaba v. Stepp, 458 F.3d
678, 680 (7th Cir. 2006). Put differently, we treat a district court’s
dismissal as final where “there are multiple indicia that the district
court was finished with the case.” Hernandez v. Dart, 814 F.3d 836,
841 (7th Cir. 2016). Here, the entirety of the district court’s dismissal
of Effex’s case suggests that it was indeed finished with the case
and that Effex could not refile after it seeks any administrative
remedy that may be available to it. First, the district court said
that review of Effex’s “properly exhausted claims” could be taken in
“the appropriate federal court,” R.89 at 15 (emphasis added), which
contemplates filing in the court of appeals pursuant to the review
process Congress provided in 7 U.S.C. § 21(i)(4). Additionally, the
docket entry accompanying the district court’s opinion indicates
that “[t]his case will be closed,” R.88, and the district court entered
judgment separately pursuant to Federal Rule of Civil Procedure 58.
R.90. Taken together, it appears that Effex could not refile suit with
the district court even after seeking its administrative remedies. Cf.

3a
Appendix A
For the reasons set forth more fully in the following
opinion, we now affirm the judgment of the district
court.4 In the Commodity Exchange Act, 7 U.S.C. § 1
et seq., Congress has regulated comprehensively all
matters relating to NFA discipline. As such, a federal
Bivens remedy is unavailable. 5 Further, the Commodity
Exchange Act preempts Effex’s state law claims. Any
remedy available to Effex must be based on the provisions
of that statute.

Kowalski v. Boliker, 893 F.3d 987, 994 (7th Cir. 2018) (determining
there was appellate jurisdiction where the district court dismissed
the complaint on grounds that made it “difficult to imagine” that
the plaintiff could file a new suit in the future); Hernandez, 814 F.3d
at 841 (noting one indicia that the district court finished with the
case was a docket entry stating “Civil case terminated”); Gregory
v. Hartman, No. 88-3169, 1990 U.S. App. LEXIS 13166, 1990 WL
112017, at *1 (7th Cir. 1990) (unpublished) (finding jurisdiction where
the district court “stated that [its] dismissal was ‘not meant to reflect
in any way on any legitimate state law claims’ that Gregory may have
had” and where “the court entered a separate judgment pursuant
to [Rule] 58”).

4. We “may affirm the district court’s dismissal on any ground
supported by the record, even if different from the grounds relied
upon by the district court.” Slaney v. The Int’l Amateur Athletic
Fed’n, 244 F.3d 580, 597 (7th Cir. 2001).
5. See Bivens v. Six Unknown Named Agents of Fed. Bureau
of Narcotics, 403 U.S. 388, 91 S. Ct. 1999, 29 L. Ed. 2d 619 (1971).

4a
Appendix A
I
BACKGROUND
A.
We begin our consideration of this matter with a
summary discussion of the relevant provisions of the
Commodity Exchange Act. In its current form, 6 the
Commodity Exchange Act seeks to curb price manipulation,
ensure the financial integrity of commodities transactions,
avoid systemic risk, protect market participants from
fraud or abusive sales practices, and promote responsible
and fair competition within the commodities market.
7 U.S.C. § 5(b). The Commodity Exchange Act serves
these public interests “through a system of effective self6. The Commodity Exchange Act was enacted in 1936 to amend
the Grain Futures Act of 1922. Its original goal was to “prevent
and remove obstructions and burdens upon interstate commerce in
grains and other commodities by regulating transactions therein
on commodity futures exchanges, to limit or abolish short selling,
[and] to curb manipulation.” Commodity Exchange Act, Pub. L. No.
74-675, 49 Stat. 1491, 1491 (1936). The Commodity Exchange Act
has been amended many times since, most significantly with the
Commodity Futures Trading Commission Act of 1974, § 1(a)(5), Pub.
L. No. 93-463, 88 Stat. 1389 (1974) (establishing the independent
Commodity Futures Trading Commission), the Commodity Futures
Modernization Act of 2000, Pub. L. No. 106-554, 114 Stat. 2763
(2000) (among other things, renewing the Commission’s mandate,
clarifying regulation of over-the-counter derivatives, and repealing
a ban on trading single stock futures), and the Dodd-Frank Wall
Street Reform and Consumer Protection Act, Pub. L. No. 111-203,
124 Stat. 1376 (2010) (in part, expanding the Commission’s authority
to oversee the swaps marketplace).

5a
Appendix A
regulation of trading facilities, clearing systems, market
participants and market professionals under the oversight
of the Commission.”7 Id. As part of this regulatory scheme,
the Commodity Futures Trading Commission Act of 1974
authorized the creation of registered futures associations
as self-regulatory organizations (“SRO”) to complement
the Commodity Futures Trading Commission’s (the
“Commission” or the “CFTC”) regulation of commodity
futures markets and their participants. 8
7. Cong ress created the Commodity Futures Trading
Commission as an independent commission to address concerns
that the self-regulatory framework of the Commodity Exchange
Act as previously enacted no longer met the changing needs of the
commodity futures markets without some oversight. See, e.g., H.R.
Rep. No. 93-975, at 34-38 (1974); S. Rep. No. 93-1131, at 18-19 (1974).
8. See Commodity Futures Trading Commission Act of 1974,
§ 301, 88 Stat. at 1406-11 (1974) (codified at 7 U.S.C. § 21). The
House version of the Commodity Futures Trading Commission Act
included the relevant section authorizing SROs and delineating
their roles and responsibilities whereas the Senate bill included
an amendment striking such authorization and instead providing
for further study of the appropriateness of SROs. See H.R. Rep.
93-1383, at 39 (1974) (Conf. Rep.). The Conference adopted the
House provision with an amendment providing for annual reports to
Congress so that Congress could continually review the effectiveness
of SROs. Id. The House Committee on Agriculture indicated that
permitting self-regulation through registered futures associations,
under the supervision of a federal agency, struck an appropriate
balance between self-regulation and direct federal regulation of
futures trading. See H.R. Rep. 93-975, at 48 (“The Committee bill
does not propose that self-regulatory activities of the exchanges be
abolished in favor of continued and direct federal regulation of all
aspects of futures trading. ... Yet, with proper Federal supervisory
authority, needed self-regulatory efforts of the exchanges can live

6a
Appendix A
The Commodity Exchange Act requires that SROs set
forth many types of regulations and rules, including rules
that “provide that its members and persons associated
with its members shall be appropriately disciplined ... for
any violation of its rules.” 7 U.S.C. § 21(b)(8). Moreover,
disciplinary proceedings against members and persons
permitted to register as “associate[s]” 9 of a member
must follow “fair and orderly procedure[s].” Id. § 21(b)(9).
This mandate includes requiring “that specific charges
be brought; that such member or person shall be notified
of, and be given an opportunity to defend against,
such charges; that a record shall be kept; and that the
determination shall include” statements setting forth
the impermissible acts the member or person took, the
rules violated, and penalty imposed. Id.; see also 17 C.F.R.
§ 170.6(b) (requiring the SRO to “[c]onduct proceedings
in a manner consistent with the fundamental elements of
due process”).
The statute provides for CFTC review of an SRO’s
disciplinary action. It requires that SROs “promptly
shall give notice” of any final disciplinary action against
a member or person associated with a member “to
such member or person and file notice thereof with the
Commission.” 7 U.S.C. § 21(h)(1). Final disciplinary actions
a useful life into the 21st Century and, hopefully, beyond.”); id. at
58 (“Association activity would serve solely as a complement rather
than a displacement to the authority of the new Commission.”).

9. An associated person is a person who solicits orders,
customers, or customer funds on behalf of the NFA member. See 7
U.S.C. §§ 6k, 21(b)(2).

7a
Appendix A
are “subject to review by the Commission on its motion,
or on application by any person aggrieved by the action.”
Id. § 21(h)(2).10 The accompanying regulations permit
appeal to the Commission by “[a]ny party aggrieved by
the final decision of the National Futures Association
in a disciplinary ... action.” 17 C.F.R. § 171.23(a). The
regulations define a party as “any person who has been
the subject of a disciplinary action ... by the National
Futures Association; the National Futures Association
itself; [and] any person granted permission to participate
as a party pursuant to § 171.27 of these rules.” 17 C.F.R.
§ 171.2(i). Section 171.27 provides that, “[u]pon motion
of any interested person or, on its own motion, the
Commission may permit, or solicit, limited participation
in the proceeding by such interested person.” 17 C.F.R.
§ 171.27(a). Interested persons include “parties and
any other persons who might be adversely affected or
aggrieved by the outcome of a proceeding; ... and any
other person having a direct or indirect pecuniary or other
interest in the outcome of a proceeding.” Id. § 171.27(b).
Intervention by such an interested person is appropriate
“[i]f the Commission determines that participation would
10. Any application for CFTC review “shall be filed within 30
days after the date such notice is filed with the Commission and
received by the aggrieved person, or within such longer period
as the Commission may determine.” 7 U.S.C. § 21(h)(2). Although
application for CFTC review does not automatically stay a final
disciplinary action, the Commission may order a stay “summarily or
after notice and opportunity for hearing on the question of a stay,” id.
§ 21(h)(3)(A), and “[t]he Commission shall establish procedures for
expedited consideration and determination of the question of a stay,”
id. § 21(h)(3)(B). See generally 17 C.F.R. § 171.22(b) (regulations
pertaining to stays).

8a
Appendix A
serve the public interest.” Id. § 171.27(a). Beyond these
specific regulations regarding application for Commission
review of an SRO’s disciplinary action, there is a general
regulation that permits the Commission to “waive any
rule” in § 171 “in a particular case” and “order proceedings
in accordance with its direction” if waiver would “prevent
undue hardship on any party or for any other good cause
shown.” 17 C.F.R. § 171.14. An order under this provision
“shall be based upon a determination that no party will
be prejudiced thereby and that the ends of justice will be
served,” and “[r]easonable notice” shall be “given to all
parties of any action taken.” Id.
The CFTC has the power to “set aside the sanction
imposed by the [SRO] and, if appropriate, remand the
case to the [SRO] for further proceedings.” 7 U.S.C.
§ 21(i)(1)(B); see also 17 C.F.R. § 171.33(a) (“Upon review,
the Commission may affirm, modify, set aside, or remand
for further proceedings, in whole or in part, the decision
of the National Futures Association.”). The Commission’s
decision may be appealed to the appropriate United States
Court of Appeals. 7 U.S.C. § 21(i)(4) (“Any person aggrieved
by a final order of the Commission ... may file a petition for
review with a United States court of appeals ... .”).
B.
The NFA is an SRO that is registered under the
Commodity Exchange Act.11 It is subject to the broad
authority of the CFTC. See 7 U.S.C. § 21. This authority
11. See In re the Application of the Nat’l Futures Ass’n, 1981
WL 762560, at *37 (CFTC Sept. 22, 1981) (approving the NFA as an
SRO under 7 U.S.C. § 21).

9a
Appendix A
includes review of NFA disciplinary actions or denials of
membership. Id. § 21(h).
Effex is a closely held, foreign-currency trading firm
managed and controlled by John Dittami. It operates as an
institutional over-the-counter, foreign-exchange liquidity
provider and engages solely in transactions with other
eligible contract participants such as financial institutions
or highly capitalized trading counterparts. Because of the
nature of Effex’s trading, it is not subject to regulation
by the NFA and is therefore not a member of the NFA.12
In accordance w ith its responsibilities under
the Commodity Exchange Act, the NFA initiated an
investigation into an association member, FXCM, and
found that the company had engaged in several practices
that violate the NFA’s rules. FXCM chose to settle with
the NFA, and on February 6, 2017, the NFA released
several documents related to the settlement (collectively,
the “FXCM Settlement Documents”).13 These documents
include: (1) a complaint setting forth the NFA’s allegations
against FXCM; (2) a decision by the NFA Business
Conduct Committee finding that FXCM committed the
violations outlined in the complaint and detailing the terms
of a settlement between the NFA and FXCM; (3) a publicly
accessible narrative summarizing the decision; and (4)
12. R.45 ¶¶ 21, 24. See also 17 C.F.R. § 5.22 (delineating persons
working within the foreign exchange market who must register with
a futures association).
13. The district court refers to these documents as the “NFA
Publications.” See R.89 at 2.

10a
Appendix A
a press release announcing the decision and directing the
public to the narrative posted on the NFA’s website.
The NFA’s complaint against FXCM alleged that
FXCM failed to comply with a litany of NFA rules. More
pertinently, the NFA claimed that Effex was involved
in the misconduct allegedly committed by FXCM. The
resulting decision outlined the allegations in the complaint,
including those involving Effex, and accepted them as
true. The accompanying narrative summarized the
decision, including its statements about Effex. The press
release, although it did not specifically reference Effex,
noted that FXCM committed numerous deceptive and
abusive actions and directed the public to the narrative on
the NFA’s website. Effex alleges that the NFA’s findings
in the FXCM Settlement Documents are false and that
their publication is defamatory.
Although its investigation into FXCM implicated
Effex, the NFA did not contact Effex or provide Effex
with notice of the investigation. The CFTC, on the other
hand, conducted its own investigation into FXCM. As
part of its investigation, the Commission subpoenaed
documents from Effex and took the deposition of Mr.
Dittami and other Effex employees. Effex alleges that the
NFA obtained documents necessary for its investigation
from the CFTC despite Effex’s request that its responses
as a third party be kept confidential.
On the same day that the NFA announced its settlement
with FXCM, the CFTC issued its own decision about

11a
Appendix A
FXCM and its business practices.14 It determined that
FXCM had concealed an improper trading relationship
with a “high-frequency trader” and a company the trader
formed (which the Commission termed “HFT Co”).15
Although not explicitly named, the HFT Co is Effex. The
CFTC found materially the same facts as the NFA did
regarding Effex.
Effex did not seek review of either the NFA’s decision
or the Commission’s decision regarding FXCM. Rather,
four months after the decisions were released, Effex filed
this action against the NFA in the district court.
C.
On July 31, 2017, Effex brought this action against
the NFA. In its federal claims, Effex alleges that the
NFA violated its due process rights by not providing it
with notice of the investigation or an opportunity for a
hearing before the publication of the FXCM Settlement
Documents. The federal claims further submit that the
NFA denied Effex due process of law when it did not allow
Effex access to a post-deprivation remedy. In its state-law
claims, Effex alleges that the statements about it in the
FXCM Settlement Documents, published by the NFA,
were defamatory. Additionally, Effex alleged business
tort claims and a claim under the Illinois Trade Secrets
Act, 765 Ill. Comp. Stat. 1065/ et seq.
14. See In re Forex Capital Mkts., LLC, CFTC No. 17-09, 2017
CFTC LEXIS 6, 2017 WL 564341 (Feb. 6, 2017).
15. Id. at *3.

12a
Appendix A
Effex sought injunctive relief, asking for an order
requiring the NFA to remove the FXCM Settlement
Documents from its website, to delete all references to
Effex, or, alternatively, to provide Effex with a “name
clearing hearing.” 16 It further requested an order
compelling the NFA to “issue a new press release stating:
(a) NFA did not make any findings against Effex or Dittami;
(b) Effex was not a de facto dealing desk of FXCM; (c)
Effex was not controlled by FXCM; and (d) FXCM was not
ordered to make any customer restitution.”17 Effex also
asked for money damages of $10,000,000 for lost profits
and to redress its constitutional injury.
The NFA moved to dismiss the complaint for failure to
state a claim under Federal Rule of Civil Procedure 12(b)(6).18
With respect to the federal claims, it submitted that
dismissal was proper because there is no federal Bivens
remedy and Effex had not exhausted its administrative
claims under the Commodity Exchange Act. As for
the state-law claims, the NFA contended that all were
preempted by the Commodity Exchange Act. Finally, it
claimed absolute immunity from any damages because
the claims were based on its disciplinary proceedings.
The district court held that Effex failed to exhaust
its remedies under the Commodity Exchange Act
and dismissed without prejudice. The district court
16. R.45 at 29-30.
17. Id.
18. At the same time that the NFA moved to dismiss the action,
Effex brought a motion for a preliminary injunction.

13a
Appendix A
determined that the Commodity Exchange Act provides
a statutorily mandated exhaustion requirement and that
Effex had four avenues to pursue relief under the scheme.
First, it found that Effex could have petitioned the CFTC
to exercise its authority under 7 U.S.C. § 21(h)(2) to review
the FXCM Settlement sua sponte because the statute
permits the Commission to review an NFA decision “on
its motion.” Id. § 21(h)(2). Second, relying on the CFTC’s
decision in Paribas Futures, Inc. v. New York Mercantile
Exchange, CFTC No. 90-E-3, 1990 CFTC LEXIS 122,
1990 WL 282868, at *2 (Mar. 22, 1990),19 the district court
decided that if Commission review under § 21(h)(2) is only
available to aggrieved parties, Effex could have intervened
to become a party under the relevant regulations. Third,
citing In re Petition of Lake Shore Alternative Financial
Asset Ltd., CFTC No. CRAA-07-03, 2007 CFTC LEXIS
73, 2007 WL 2751884, at *2 (Sept. 17, 2007), 20 the district
court noted that the CFTC had previously suggested
that a nonparty could ask the Commission to waive its
rules so that the nonparty could obtain CFTC review, but
Effex had not made such a request. Finally, the district
19. In Paribas Futures, Inc. v. New York Mercantile Exchange,
CFTC No. 90-E-3, 1990 CFTC LEXIS 122, 1990 WL 282868, at *2
(Mar. 22, 1990), the Commission noted that “[i]ntervention after an
initial decision for the purposes of taking an appeal is appropriate
in some circumstances.”
20. In In re Petition of Lake Shore Alternative Financial Asset
Ltd., CFTC No. CRAA-07-03, 2007 CFTC LEXIS 73, 2007 WL
2751884, at *2 (Sept. 17, 2007), the Commission considered whether
it should waive its rules pursuant to 17 C.F.R. § 171.14 to permit the
appeal of a membership responsibility action by a nonparty to that
action.

14a
Appendix A
court determined that Effex could have turned to the
Administrative Procedure Act and petitioned the CFTC
to revise its rules generally to permit Commission review
in such instances.
The district court rejected Effex’s argument that
any resort to the Commodity Exchange Act’s remedies
would have been impossible or futile. It noted that the
CFTC had the ability to adjudicate due process claims.
Moreover, the court acknowledged that even though the
Commission rarely reviews NFA settlements, it previously
had reviewed settlements. Finally, observing that Effex’s
claims “touch on the contents of the NFA Publications—
documents generated as a result of the NFA investigation
relating to a disciplinary action,” 21 the district court
rejected Effex’s contention that it was not seeking review
of an NFA disciplinary action but rather merely was
seeking a court order regarding the publication of the
FXCM Settlement Documents containing the alleged
defamatory statements.
Therefore, the district court dismissed Effex’s
Complaint. It did so without prejudice to any rights Effex
might have to pursue its remedies before the CFTC and
then to seek further review of those exhausted claims in
the appropriate court of appeals. Having dismissed the
complaint for failure to state a claim, the court also denied
Effex’s motion for a preliminary injunction as moot. Effex
timely appealed.

21. R.89 at 12.

15a
Appendix A
II
DISCUSSION
A.
We now turn to the merits of this appeal. 22 First,
we address whether Effex has a federal cause of action.
The comprehensive nature of the federal regulatory
scheme, as set forth above, grounded in the language and
structure of the statute, makes clear that, in fashioning the
disciplinary provisions of the Commodity Exchange Act,
Congress certainly did not countenance a separate federal
remedy, much less a separate federal remedy fashioned
by the judiciary. Indeed, Effex does not maintain that
there is a specific federal cause of action to redress harm
inflicted by an SRO upon one of its members. Rather,
it asks that we imply a cause of action to remedy harm
to a nonmember (such as Effex) resulting from an SRO
proceeding. It casts this cause of action as one to remedy
a due process violation under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403
U.S. 388, 91 S. Ct. 1999, 29 L. Ed. 2d 619 (1971). Bivens
recognized a damages remedy to compensate persons
injured by the federal officers who violated the Fourth
Amendment even though the Amendment does not provide
22. The parties correctly agree that our review is de novo.
Although the district court’s opinion evinced some unease as to
whether dismissal should have been based on failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6) or for want of
jurisdiction under Rule 12(b)(1), resolving that issue does not affect
our standard of review or disposition.

16a
Appendix A
for money damages “in so many words.” Id. at 395-97. In
doing so, the Court noted that Congress had not explicitly
foreclosed a damages remedy and that there were no
“special factors” counseling against authorizing such a
remedy to effectuate the statute’s purpose. Id.
In the years following Bivens, the Supreme Court
has limited the application of the decision. See, e.g.,
Ziglar v. Abbasi, 137 S. Ct. 1843, 1857, 198 L. Ed. 2d 290
(2017) (noting that the Court has consistently refused
to extend Bivens to any new context or new category of
defendants). 23 The Court has made very clear that the
expansion of the Bivens remedy to other constitutional
provisions is a “disfavored judicial activity.” Id. at 1857
(internal quotation marks omitted). Ziglar explained
23. As Ziglar v. Abbasi, 137 S. Ct. 1843, 1857, 198 L. Ed. 2d 290
(2017), recounts, the Supreme Court declined to create an implied
damages remedy in the following situations: an Eighth Amendment
suit against prison guards at a private prison, Minneci v. Pollard, 565
U.S. 118, 120, 132 S. Ct. 617, 181 L. Ed. 2d 606 (2012); a due process
suit against officials from the Bureau of Land Management, Wilkie v.
Robbins, 551 U.S. 537, 547-48, 562, 127 S. Ct. 2588, 168 L. Ed. 2d 389
(2007); an Eighth Amendment suit against a private prison operator,
Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 63, 122 S. Ct. 515, 151 L.
Ed. 2d 456 (2001); a procedural due process suit against a federal
agency for wrongful termination, FDIC v. Meyer, 510 U.S. 471, 47374, 114 S. Ct. 996, 127 L. Ed. 2d 308 (1994); a procedural due process
suit against Social Security officials, Schweiker v. Chilicky, 487 U.S.
412, 414, 108 S. Ct. 2460, 101 L. Ed. 2d 370 (1988); a substantive due
process suit against military officers, United States v. Stanley, 483
U.S. 669, 683-84, 107 S. Ct. 3054, 97 L. Ed. 2d 550 (1987); a First
Amendment suit against a federal employer, Bush v. Lucas, 462
U.S. 367, 390, 103 S. Ct. 2404, 76 L. Ed. 2d 648 (1983); and a racediscrimination suit against military officers, Chappell v. Wallace,
462 U.S. 296, 297, 304-05, 103 S. Ct. 2362, 76 L. Ed. 2d 586 (1983).

17a
Appendix A
that “[w]hen a party seeks to assert an implied cause
of action under the Constitution itself,” “separationof-powers principles are or should be central to the
analysis.” Id. Under these principles, it is a “significant
step” “for a court to determine that it has the authority,
under the judicial power, to create and enforce a cause
of action for damages against federal officials in order
to remedy a constitutional violation.” Id. at 1856. Such
a determination is a significant step because there are
powerful countervailing considerations to the creation of
a Bivens cause of action, including that Congress “has a
substantial responsibility to determine whether, and the
extent to which, monetary and other liabilities should be
imposed upon individual officers and employees of the
Federal Government.” Id. Therefore, an implied cause
of action under the Constitution is not available if there
is a “special factor” that “cause[s] a court to hesitate”
before determining that a court rather than Congress
should provide a remedy. Id. at 1858. Such doubt could
arise where “there is an alternative remedial structure
present.” Id. An alternative structure “alone may limit
the power of the Judiciary to infer a new Bivens cause
of action” because Congress’s decision to create the
alternative remedial process is “convincing reason for
the Judicial Branch to refrain from providing a new and
free-standing remedy in damages.” Id. (quoting Wilkie
v. Robbins, 551 U.S. 537, 550, 127 S. Ct. 2588, 168 L. Ed.
2d 389 (2007)).
Applying these principles, an alternative remedial
structure counseling hesitation against expanding the
Bivens remedy is certainly present here. The enactment
of the Commodity Exchange Act provides far more than

18a
Appendix A
a “doubt” about Congress’s willingness to tolerate an
alternate remedy to the comprehensive remedial structure
of federal oversight by SROs found in the statute. In the
Commodity Exchange Act, Congress has set forth, with
significant precision, the remedies available to members
of an SRO and to others. Indeed, in another Bivens
case, the Court has explained that, where Congress has
exercised comprehensively its power to regulate, there is
no room, or justification, for additional regulation through
court-created causes of action. See Schweiker v. Chilicky,
487 U.S. 412, 424-29, 108 S. Ct. 2460, 101 L. Ed. 2d 370
(1988) (determining that there was no Bivens action for
alleged due process violations arising from the improper
termination of social security benefits because Title II of
the Social Security Act provided an “elaborate” system
protecting the rights of benefit claimants).
An entity that was not a party to the SRO proceeding
is no doubt in a somewhat different position than a party
to the proceeding. We do not believe, however, that the
difference is so significant that such an entity can maintain
a judicially created cause of action against the SRO for
harms that the nonparty claims to have suffered as a result
of disciplinary proceedings. Such a view presupposes a
very narrow, and in our view too narrow, understanding
of the scope of the Commodity Exchange Act. Effex
offers no explanation or support for why Congress,
having established a comprehensive mechanism for the
governance of the commodities industry, would permit
disruption of that mechanism through a judicially created
cause of action. 24
24. In light of the Supreme Court’s explanation of the Bivens
remedy in Ziglar, Effex distanced itself from its federal claims

19a
Appendix A
Indeed, as the CFTC points out in its brief as amicus
curiae, Congress has decided that a “person aggrieved” by
the SRO’s action may seek redress before the Commission.
See 7 U.S.C. § 21(h)(2). To determine who falls within the
scope of the provision, the CFTC submits that, like other
statutorily created causes of action, there must be an
inquiry into the zone-of-interests sought to be protected
by the Commodity Exchange Act. See Lexmark Int’l, Inc.
v. Static Control Components, Inc., 572 U.S. 118, 134 S. Ct.
1377, 1388, 188 L. Ed. 2d 392 (2014). This inquiry utilizes
“traditional tools of statutory interpretation,” id. at 1387,
and “the breadth of the zone-of-interests varies according
to the provisions of the law at issue,” id. at 1389 (internal
quotation marks omitted). The statutory analysis involves
“discern[ing] the interests ‘arguably ... to be protected’ by
the statutory provision at issue” and then asking “whether
the plaintiff’s interests affected by the agency action in
question are among them.” Nat’l Credit Union Admin.
v. First Nat’l Bank & Trust Co., 522 U.S. 479, 492, 118
S. Ct. 927, 140 L. Ed. 2d 1 (1998) (quoting Ass’n of Data
Processing Serv. Orgs., Inc. v. Camp, 397 U.S. 150, 153,
90 S. Ct. 827, 25 L. Ed. 2d 184 (1970)). Undoubtedly, a
“person aggrieved” by an SRO’s action always includes a
party to the proceedings. And there may be circumstances
where a nonparty may fall within the zone-of-interests of
at oral argument and, indeed, seemed to abandon them. See Oral
Argument at 14:40-15:03 (“At this point, I’ve got four other state
claims and I’m not pursuing the constitutional claim—I’ve put that
in the briefs—so I don’t think the modification of the rules will do
anything for us. And as Ziglar v. Abbassi has recently come down
with, I don’t think the constitutional claim would get us monetary
relief, which is what we are seeking.”).

20a
Appendix A
the statute and therefore have the right to seek redress
before the CFTC. Whether a particular entity falls
within the zone-of-interests protected by the statute is a
determination left to the Commission through case-bycase administration of the statute.
B.
We next address Effex’s statelaw claims. The comprehensive way by which the Commodity Exchange Act deals
with disciplinary proceedings before an SRO also raises
the question as to whether Congress intended the scheme
to be free from other remedial devices based on state law.
We conclude that Congress did intend to preempt statetort claims such as the ones brought in this action.
The general principles governing the preemption of
state law can be stated succinctly. Preemption is most
obvious, of course, when the federal statute expressly
commands it and defines the scope of such a preemptive
effect. See Pac. Gas & Elec. Co. v. State Energy Res.
Conservation & Dev. Comm’n, 461 U.S. 190, 203, 103
S. Ct. 1713, 75 L. Ed. 2d 752 (1983); Frank Bros., Inc. v.
Wisconsin Dep’t of Transp., 409 F.3d 880, 885 (7th Cir.
2005). Preemption also occurs, however, where Congress
manifests an intent to occupy exclusively an entire field
of regulation through a comprehensive federal regulatory
scheme. See Fid. Fed. Sav. & Loan Ass’n v. De la Cuesta,
458 U.S. 141, 153, 102 S. Ct. 3014, 73 L. Ed. 2d 664 (1982);
Wigod v. Wells Fargo Bank, N.A., 673 F.3d 547, 576 (7th
Cir. 2012). Additionally, a state law is preempted where
it is impossible to comply with both federal and state law,

21a
Appendix A
see Fla. Lime & Avocado Growers, Inc. v. Paul, 373 U.S.
132, 142-43, 83 S. Ct. 1210, 10 L. Ed. 2d 248 (1963); Kroog
v. Mait, 712 F.2d 1148, 1152-54 (7th Cir. 1983), or where
state law would be “an obstacle to the accomplishment and
execution of the full purposes and objectives of Congress,”
Hines v. Davidowitz, 312 U.S. 52, 67, 61 S. Ct. 399, 85 L.
Ed. 581 (1941). 25
We addressed preemption in the context of the
Commodity Exchange Act in American Agriculture
Movement, Inc v. Board of Trade of City of Chicago, 977
F.2d 1147 (7th Cir. 1992). 26 In that case, we examined
claims that a contract market, 27 the Chicago Board of
Trade, breached its common law fiduciary duties and
acted negligently. Id. at 1150-52. We approached the
preemption issue cautiously. We first noted that the
25. See also NCR Corp. v. George A. Whiting Paper Co., 768
F.3d 682, 711-12 (7th Cir. 2014).
26. In Freightliner Corp. v. Myrick, 514 U.S. 280, 287-89, 115
S. Ct. 1483, 131 L. Ed. 2d 385 (1995), the Supreme Court clarified
its decision in Cipollone v. Liggett Group, Inc., 505 U.S. 504, 112
S. Ct. 2608, 120 L. Ed. 2d 407 (1992), to reject the proposition that
implied preemption analysis is only appropriate when the statute is
devoid of express preemptive language, abrogating our statement
to that effect in American Agriculture, 977 F.2d at 1154. The
Court’s decision in Freightliner does not diminish the application
of American Agriculture in this case.
27. The Commission has the authority to designate organizations
as “contract markets” in which investors may trade commodity
futures. See 7 U.S.C. § 7. Contract markets have some duties of selfregulation, including enacting and enforcing rules to ensure fair and
orderly trading. See id. § 7(d).

22a
Appendix A
Commodity Exchange Act does not expressly preempt
state law nor is it impossible to comply with both state
and federal law. Id. at 1154. Moreover, we determined
that the Commodity Exchange Act did not manifest an
intent to occupy completely the entire field of commodity
futures regulation. Id. at 1155. Specifically, we pointed
to the Commodity Exchange Act’s savings clause, which
provides that “[n]othing in this section shall supersede or
limit the jurisdiction conferred on the courts of the United
States or any State,” id. (quoting 7 U.S.C. § 2), and viewed
“any State” as “[p]reserving in the futures trading context
at least some state law causes of actions,” id. Turning to
the last avenue for preemption—that applying state law
would frustrate the purposes of Congress in enacting the
Commodity Exchange Act—we decided that such conflict
preemption could apply in certain circumstances. Id. at
1155-56.
In reaching this conclusion, we noted that, in addition
to the savings clause, the Commodity Exchange Act
provides that “the Commission shall have exclusive
jurisdiction ... with respect to accounts, agreements ...,
and transactions involving the contracts of sale of a
commodity for future delivery, traded or executed on a
contract market.” Id. at 1155 (quoting 7 U.S.C. § 2). In
order to give “full effect” to both the savings clause and
the jurisdictional clause, we determined that “Congress
intended to preempt some, but not all, state laws that
bear upon the various aspects of commodity futures
trading.” Id. Precisely, preemption is appropriate “[w]hen
application of state law would directly affect trading on or
the operation of a futures market.” Id. at 1156.

23a
Appendix A
Applying this determination, we decided that common
law claims against brokers for breach of fiduciary
duty could go forward. We noted that the Commodity
Exchange Act’s structure evinced a comprehensive
regulatory scheme and that the legislative history of the
Commodity Futures Trading Commission Act of 1974
suggested that a catalyst for the significant amendments
to the Commodity Exchange Act was a fear that, without
increased federal regulation, the states would regulate the
futures markets to a chaotic effect. Id. We also recognized
other court decisions holding that common law claims such
as negligence, fraud, and breach of fiduciary duty could
be brought by futures investors against their brokers.
Id. With this background in mind, we explained that the
claims against brokers had “little or no bearing upon
the actual operation of the commodity futures markets”
and that “[o]nly in the context of market regulation does
the need arise for uniform legal rules.” Id. By contrast,
“there is no need for uniformity when it comes to rules
that govern principal-agent relationships between brokers
and investors.” Id.
Here, Effex does not seem to challenge that
preemption applies to claims by NFA members contesting
its disciplinary actions. The NFA’s discipline of its own
members is a specific and central element of the role
Congress delegated to SROs in its regulation of the
commodities futures market. See 7 U.S.C. § 21(b); see also
H.R. Rep. 93-975, at 58 (“Association activity would serve
solely as a complement rather than a displacement to the
authority of the new Commission.”). If a member could
challenge the NFA’s discipline and disciplinary process

24a
Appendix A
through a state-tort claim, the NFA’s capacity to discipline
its members—here, FXCM—for violating its rules would
be impaired significantly. State courts effectively could
supervise the NFA’s regulation of its members and thus
impede its federally mandated role in the Commodity
Exchange Act’s overall scheme. The resulting obstacle
to Congress’s purposes in creating federal regulations
overseeing the national commodities futures market is
obvious.
Our sister circuits’ approaches to cases arising under
the very similar Securities Exchange Act 28 support
this conclusion. 29 Turbeville v. FINRA, 874 F.3d 1268
28. See In re Application of the Nat’l Futures Ass’n, 1981 WL
762560, at *14 (“The provisions of [7 U.S.C. § 21] were modeled
closely after Section 15A of the Securities Exchange Act ... . Indeed,
Congress adopted some of the language of Section 15A of the
Exchange Act verbatim when it drafted [7 U.S.C. § 21].”). Compare
15 U.S.C. § 78s(d)(2) (permitting Securities Exchange Commission
review of SRO disciplinary actions for “any person aggrieved”), with
7 U.S.C. § 21(h)(2) (permitting CFTC review of SRO disciplinary
actions for “any person aggrieved”).
29. See In re Series 7 Broker Qualification Exam Scoring
Litig., 548 F.3d 110, 114, 383 U.S. App. D.C. 304 (D.C. Cir. 2008)
(determining preemption applies under the Securities Exchange
Act where “Congress created a self-contained process to review and
remedy [] complaints”); Barbara v. NYSE, 99 F.3d 49, 59 (2d Cir.
1996) (“Furthermore, allowing suits against the Exchange arising
out of the Exchange’s disciplinary functions would clearly stand as
an obstacle to the accomplishment and execution of the full purposes
and objectives of Congress ... .” (internal quotation marks omitted)),
abrogated on other grounds by Merrill Lynch, Pierce, Fenner &
Smith Inc. v. Manning, 136 S. Ct. 1562, 194 L. Ed. 2d 671 (2016).

25a
Appendix A
(11th Cir. 2017), is particularly instructive. There, the
Financial Industry Regulatory Authority (“FINRA”)
had disciplined a registered representative of a FINRAaffiliated broker firm for conduct violating FINRA’s
rules. 30 Id. at 1272. He filed a suit in Florida state court
claiming that FINRA’s issuance of a “Wells notice”
making a preliminary determination against him was
defamatory and tortuously interfered with his businesses.
Id. at 1272-73. 31 After removal to federal court, the
district court dismissed the case, finding that FINRA
is absolutely immune from damages claims arising from
the exercise of its regulatory functions and that there
was no private cause of action. Turbeville v. FINRA, No.
8:15-CV-2920-T-30EAJ, 2016 U.S. Dist. LEXIS 15634,
2016 WL 501982, at *4-5 (M.D. Fla. Feb. 9, 2016). The
Eleventh Circuit affirmed, determining the Securities
Exchange Act preempted these tort claims. Noting the
internal appeals and administrative-review process set
forth in the Securities Exchange Act, the court explained
that permitting the state claims to go forward “implies
necessarily the existence of a private right of action against
FINRA that operates parallel to the administrativereview processes the Act prescribes.” Turbeville, 874 F.3d
at 1276. Moreover, the statutory review process could
correct the claimed injury by “removing information
shown to be inaccurate” in the Wells notice. Id. at 1276-77.
30. FINRA is an SRO operating under the oversight of the
Securities Exchange Commission.
31. At the time he filed suit, the broker was no longer working
in the securities industry and no longer a member of a FINRAaffiliated firm. Turbeville, 874 F.3d at 1273.

26a
Appendix A
In the Eleventh Circuit’s view, the remedies provided by
the administrative-review scheme precluded a separate
remedy under state law. Id. at 1277. It said that:
Recognizing the second set of rights and
remedies under state law Turbeville seeks
would undercut the distinctly federal nature of
the Exchange Act. If actions like Turbeville’s
are permitted, fifty state courts would be
authorized to supervise FINRA’s regulatory
conduct and its application of its internal, SECapproved rules through the vehicle of state
tort law. And given SROs’ front-line role in
enforcing federal securities laws, such review
would in turn lead to state-court supervision
of the Exchange Act’s securities-regulation
regime writ large.
Id. The Commodity Exchange Act is a different statute,
but given the similarity of the statutes, the logic of these
Securities Exchange Act decisions applies here. Allowing
suits against the NFA arising out of the NFA’s disciplinary
actions would present a serious obstacle to the NFA’s
ability to carry out its regulatory duties, especially where
there are administrative remedies available.
Apparently recognizing the force of these cases, Effex
limits its argument. It submits only that preemption
should not apply to its claims because it is not a member
of the NFA and because its claims arise out of NFA’s
“intentional ultra vires actions to damage Effex which it

27a
Appendix A
cloaked in FXCM Proceeding [sic].” 32 We do not believe
that this distinction is a principled ground that justifies
a different result. At bottom, Effex’s challenge remains
a challenge to the settlement of a disciplinary proceeding
before the NFA that was within the NFA’s jurisdiction.
Effex claims, in essence, that the NFA improperly
conducted its disciplinary proceedings. It does not matter
whether Effex is a member or nonmember of the NFA
or a party or nonparty to the proceedings. Permitting a
collateral attack on those proceedings based on Effex’s
tort claims would impair the NFA’s ability to enforce its
rules and carry out its regulatory role.
Preemption does not necessarily mean that Effex
has no remedy; it means that it must look to the federally
mandated review scheme established by Congress. The
fact that these remedies may be different from those
afforded by state law, or inadequate by comparison, is not
of consequence. Congress has the right to determine the
remedies available and the individuals who are eligible
for those remedies. 33
32. Appellant’s Reply Br. 28.
33. Federal law does not need to provide a full portfolio of
remedies when it preempts state law. See In re Series 7 Broker
Qualification Exam Scoring Litig., 548 F.3d at 114 (noting that,
although “[p]laintiffs may be troubled by the fact that Congress’s
approach does not include damage-remedies,” “[b]y specifically
adopting an appeals process which does not provide monetary relief,
Congress has displaced claims for relief based on state common law”
because such a suit “is merely an ‘attempt ... to bypass the Exchange
Act’ and the process Congress envisioned therein” (quoting MM &
S Fin., Inc. v. NASD, 364 F.3d 908, 912 (8th Cir. 2004)).

28a
Appendix A
At our invitation, 34 the CFTC filed an amicus brief
outlining its view on whether a nonparty can seek review of
an NFA disciplinary procedure or otherwise seek redress
before the Commission. The Commission submits that
although nonparties do not have a right to CFTC review
of an NFA action that implicates them, the Commission
does have the discretion to permit nonparties to obtain
CFTC review in extraordinary circumstances pursuant to
17 C.F.R. § 171.14. The district court was of the view that
nonparties also have the right to CFTC review through
intervention or by asking the CFTC to review a matter
sua sponte.
We do not believe it appropriate for us to delineate in
any definitive way the administrative paths that may be
open to Effex. It is not at all clear that Effex will choose
to pursue the administrative remedies that may be open
to it. If, on reflection, Effex does pursue those remedies
and then seeks review in this court, we will have an
opportunity to address the question of remedies with
the benefit of the Commission’s views not in the abstract
context of an amicus brief but after adversary litigation.

34. We invited the Commission to submit an amicus brief
addressing whether a nonparty affected by an NFA disciplinary
action could seek the CFTC’s review of that action. We thank the
Commission for accepting our invitation. The parties were given an
opportunity to respond to the Commission’s submission and have
submitted briefs stating their position.

29a
Appendix A
Conclusion
For the reasons set forth in this opinion, we affirm
the judgment of the district court.
AFFIRMED

30a
Appendix B
Appendix b — memorandum
opinion and
order of the united states district
court for the northern district
of illinois, eastern division,
filed april 5, 2018
IN THE United States District Court
for the Northern District of Illinois
Eastern Division
No. 17-cv-04245
EFFEX CAPITAL, LLC and JOHN DITTAMI,
Plaintiffs,
v.
NATIONAL FUTURES ASSOCIATION, et al.,
Defendants.
April 5, 2018, Decided
April 5, 2018, Filed
Judge Andrea R. Wood
MEMORANDUM OPINION AND ORDER
Plaintiffs Effex Capital, LLC (“Effex”) and John
Dittami have sued Defendants National Futures
Association (“NFA”), James P. O’Hara, and Thomas P.
Sexton, alleging that Defendants published false and

31a
Appendix B
defamatory statements regarding Plaintiffs and disclosed
their trade secrets without authorization. Now before this
Court are Plaintiff’s motion for a preliminary injunction
(Dkt. No. 7) and Defendants’ motion to dismiss Plaintiffs’
amended complaint (Dkt. No. 58). As discussed below,
because Plaintiffs failed to exhaust their administrative
remedies prior to filing this lawsuit, the motion to dismiss
is granted and the motion for a preliminary injunction is
denied as moot.
BACKGROUND1
The NFA is a registered futures association that
operates as a self-regulatory organization; it is organized
under the authority of the Commodity Exchange Act, 7
U.S.C. § 21 et seq., and overseen by the United States
Commodity Futures Trading Commission (“CFTC”).
(Am. Compl. ¶ 3, Dkt. No. 45.) While the NFA is a
private organization, it performs regulatory functions to
safeguard the integrity of the derivatives markets that the
CFTC would otherwise have to undertake. (See id. ¶ 22.)
At the time of the events giving rise to this case, Defendant
Sexton was the President and Chief Executive Officer of
the NFA, as well as its general counsel. (Id. ¶ 4.) Defendant
1. For purposes of Defendants’ motion to dismiss, the Court
accepts the facts alleged in the amended complaint as true and draws
all reasonable inferences in Plaintiffs’ favor. See Citadel Sec., LLC
v. Chicago Bd. Options Exch., Inc., 808 F.3d 694, 698 (7th Cir. 2015)
(discussing the standard for motions to dismiss for lack of subjectmatter jurisdiction under Federal Rule of Civil Procedure 12(b)(1));
see also Pisciotta v. Old Nat. Bancorp., 499 F.3d 629, 633 (7th Cir.
2007) (discussing the standard for Rule 12(c) motions).

32a
Appendix B
O’Hara was a member of the NFA’s Business Conduct
Committee. (Id. ¶ 5.) Sexton and O’Hara participated in
some of the NFA’s activities described below. (Id. ¶ 11.)
Effex is a foreign currency trading firm managed
and controlled by Dittami. (Id. ¶ 23.) Effex provides
foreign currency liquidity to institutional counterparts
and utilizes confidential and proprietary trading software
in its business. (Id. ¶¶ 23, 30.) Effex does not engage
in activities that the NFA regulates. (Id. ¶ 24.) Hence,
Plaintiffs are not members of the NFA. (Id. ¶ 21.)
This lawsuit arises out of a disciplinary adjudication
by the NFA. (Id. ¶¶ 38-49.) Plaintiffs were not themselves
the subjects of that adjudication—rather, the NFA was
investigating Forex Capital Markets, LLC (“FXCM”)
and its managers, with whom Plaintiffs did business.
(Id. ¶¶ 38-43, 60, 61.) While the NFA did not contact
Plaintiffs or provide them with notice in connection with
its investigation, the CFTC, as part of its own investigation
into FXCM, issued subpoenas to obtain documents from
Plaintiffs, took a lengthy deposition of Dittami, and
obtained various documents and deposition testimony from
officers and employees of FXCM. (Id. ¶¶ 37, 43.) The NFA
then obtained access to various documents, deposition
testimony, and other materials (including those originally
procured by the CFTC) that contained confidential
information related to Plaintiffs’ trade secrets. (Id. ¶¶ 36,
37, 44, 46-49.) In 2017, the NFA and FXCM reached a
settlement, under which a penalty was imposed on FXCM.
(Id. ¶ 50.) The NFA issued a complaint, decision, narrative,
and press release (“NFA Publications”) regarding its

33a
Appendix B
disciplinary adjudication against FXCM. (Id. ¶ 51.)
According to Plaintiffs, the NFA Publications contained
false and defamatory statements regarding Plaintiffs
(and their connection to FXCM) and revealed Plaintiffs’
trade secrets. (Id. ¶¶ 50, 51, 60, 61.) In particular, among
other things, the NFA Publications stated that Plaintiffs
engaged in abusive trade execution practices that denied
FXCM’s retail customers favorable price improvement
and benefitted Effex and FXCM financially, that Effex
was controlled by FXCM, and that Effex’s relationship
with FXCM amounted to a “dealing desk model.” (Id.
¶ 60.) Plaintiffs did not have an opportunity to participate
in the NFA investigation and were not given prior notice
regarding the NFA Publications. (Id. ¶ 52, 63.)
As a result of the NFA Publications, Plaintiffs claim to
have sustained damage to their professional reputations,
lost business, and were subjected to several lawsuits.
(Id. ¶¶ 77-83.) Plaintiffs have brought this suit seeking
injunctive relief and monetary damages, alleging that
Defendants have defamed Plaintiffs, denied Plaintiffs
due process of law, interfered with Plaintiffs’ business
relations and economic advantage, and violated the Illinois
Trade Secret Act. (Id. ¶¶ 84-150.) Early in the litigation,
Plaintiffs filed a motion seeking a preliminary injunction.
(Dkt. No. 7.) While briefing regarding the preliminary
injunction was on-going, Defendants filed their motion
to dismiss Plaintiffs’ amended complaint. (Dkt. No. 58.)
Briefing on both motions then proceeded simultaneously
and the Court held oral argument.

34a
Appendix B
DISCUSSION
The Court begins its analysis with Defendants’ motion
to dismiss, which argues that the present case should
be dismissed because Plaintiffs failed to exhaust their
administrative remedies with the CFTC prior to filing
this federal lawsuit. 2 “Generally, a district court is unable
to waive a statutorily-mandated exhaustion requirement.”
Citadel Sec., LLC v. Chicago Bd. Options Exch., Inc., 808
2. The parties have not briefed whether the exhaustion
requirement at issue here is jurisdictional. See Gray v. United States,
723 F.3d 795, 798 (7th Cir. 2013) (discussing the difference between
exhaustion requirements that are jurisdictional and those that are
not). However, the Court has an obligation to consider the issue
of jurisdiction on its own initiative. Id. And the caselaw suggests
that the exhaustion requirement is a jurisdictional one. See Citadel
Sec., LLC v. Chicago Bd. Options Exch., Inc., 808 F.3d 694, 701 (7th
Cir. 2015) (considering a similar exhaustion requirement under the
Securities Exchange Act of 1934 and affirming dismissal for lack of
subject-matter jurisdiction). Thus, it seems that Defendants’ motion
to dismiss under Federal Rule of Civil Procedure 12(b)(6) should be
viewed as a motion for lack of jurisdiction under Rule 12(b)(1), with
Plaintiffs bearing the burden of establishing that jurisdictional
requirements have been met. See Ctr. for Dermatology & Skin
Cancer, Ltd. v. Burwell, 770 F.3d 586, 588- 89 (7th Cir. 2014).
Whether or not the exhaustion requirement is jurisdictional,
however, does not alter the outcome. Even if exhaustion is not a
jurisdictional issue but simply an affirmative defense in this case,
then Defendants’ motion may properly be viewed as a motion under
Rule 12(c), and the Court still has in front of it all that it needs to
rule. See Carr v. Tillery, 591 F.3d 909, 913 (7th Cir. 2010). There is
no dispute that Plaintiffs failed to seek CFTC review before filing
suit, and, for the reasons detailed below, the exhaustion requirement
applies to Plaintiffs’ claims while futility exception does not.

35a
Appendix B
F.3d 694, 700 (7th Cir. 2015). However, exhaustion is not
required if it would be futile. Id. The futility exception
is limited to those situations where it is clearly shown
that the administrative procedure would be useless or
inadequate to prevent irreparable harm. Id. Thus, where a
plaintiff has not made such a clear showing, application of
the futility exception is unwarranted. Id. This is true even
if there is no obvious path to the compensation plaintiff
seeks. See id.
The CFTC has exclusive jurisdiction over certain
aspects of the futures trading market. See 7 U.S.C. § 2(a)
(1)(A). The NFA, as a registered futures association, is
subject to comprehensive oversight by the CFTC. See 7
U.S.C. § 21; see also 17 C.F.R. § 171.1 et seq. The CFTC’s
authority to review registered futures associations’
disciplinary actions is set forth in 7 U.S.C. § 21(h), which
provides, in relevant parts:
(1) If any registered futures association takes
any final disciplinary action against a member
of the association or a person associated with
a member, denies admission to any person
seeking membership therein, or bars any
person from being associated with a member,
the association promptly shall give notice
thereof to such member or person and file notice
thereof with the Commission. The notice shall
be in such form and contain such information
as the Commission, by rule or regulation, may
prescribe as necessary or appropriate to carry
out the purposes of this chapter.

36a
Appendix B
(2) Any action with respect to which a registered
futures association is required by paragraph (1)
to file notice shall be subject to review by the
Commission on its motion, or on application
by any person aggrieved by the action. Such
application shall be filed within 30 days after the
date such notice is filed with the Commission
and received by the aggrieved person, or within
such longer period as the Commission may
determine.
7 U.S.C. §§ 21(h)(1), (2) (emphasis added). Thus, the statute
offers two options to pursue the CFTC’s review: on the
CFTC’s own motion and on “application by any person
aggrieved by the action.” Id.
Someone seeking CFTC review does not have to sit and
wait for the CFTC to make a motion. CFTC regulations
governing motions provide that “[a]n application for a
form of relief not otherwise specifically provided for” can
be made by a written motion. 17 C.F.R. § 171.10(a). Thus,
it appears that one can move the CFTC to exercise its
authority to review NFA’s decision on the CFTC’s own
motion. 3
3. The regulations governing the CFTC’s review of actions in
the absence of an appeal provide that the CFTC may review an NFA
decision on its own motion in the following manner: “At any time
prior to the effective date of a final decision of the National Futures
Association in a disciplinary, membership denial or registration
action, the Commission may take review of a decision by issuing an
appropriate order.” 17 C.F.R. § 171.31(d). If the CFTC “determines
that it is appropriate to take review on its own motion, it shall by

37a
Appendix B
But more importantly for present purposes, the
statute includes a second option for obtaining CFTC
review: that “any person aggrieved by the action” may
appeal, indicating that appeals are not restricted only to
those by the parties to the underlying NFA action. See 7
U.S.C. § 21(h)(2) (emphasis added). The CFTC regulation
governing notice of appeal provides that “[a]ny party
aggrieved by the final decision of the National Futures
Association in a disciplinary . . . action may . . . file a notice
of appeal,” thus perhaps suggesting that a non-party
cannot appeal.4 17 C.F.R. § 171.23(a) (emphasis added).
But CFTC regulations also define the term “party” as
including “any person granted permission to participate
as a party pursuant” to the CFTC’s intervention rules, see
17 C.F.R. § 171.2(i), and detail how a person may intervene
in a proceeding:
(a) Upon motion of any interested person or, on
its own motion, the Commission may permit, or
order establish the procedure for submission of both the record of
the proceeding and the briefs of the parties.” Id. Accordingly, it does
not appear that the regulations prohibit anyone from moving under
17 C.F.R. § 171.10(a) to ask the CFTC to review an NFA’s action on
the CFTC’s own motion.

4. Plaintiffs also argue that the term “person aggrieved by the
action” in § 21(h)(2) cannot encompass a nonparty to the underlying
NFA action because the statute of limitations in that subsection does
not commence until written notice is provided, and notice is provided
only to participants in the underlying action. But the precise scope of
the term need not be determined here because, as described below,
even if the term does not encompass non-parties, the intervention
mechanism allows a non-party to become a party.

38a
Appendix B
solicit, limited participation in the proceeding
by such interested person. A motion for leave
to participate in the proceeding shall be filed
promptly, shall identify the interest of that
person and shall show why participation in the
proceeding by that person would serve the public
interest. If the Commission determines that
participation would serve the public interest,
it shall by order establish a supplementary
briefing schedule for the interested person and
the parties to the proceeding.
(b) For purposes of this subsection, interested
person shall include parties and any other
persons who might be adversely affected or
aggrieved by the outcome of a proceeding;
their officers, agents, employees, associates,
affiliates, attorneys, accountants or other
representatives; and any other person having
a direct or indirect pecuniary or other interest
in the outcome of a proceeding.
17 C.F.R. § 171.27 (emphasis added).
Furthermore, the CFTC’s decision in Paribas
Futures, Inc. v. New York Mercantile Exchange, No. 90-E3, 1990 WL 282868 (C.F.T.C. Mar. 22, 1990), suggests that
an aggrieved person may intervene in an appeal even if
such person was not a party to the underlying disciplinary
action to begin with. In particular, Paribas dealt with a
late-delivery penalty imposed by the New York Mercantile
Exchange’s Petroleum Delivery Panel against a clearing

39a
Appendix B
member. Id. *1. The clearing member appealed the Panel’s
decision to the Adjudication Committee, but the liability
finding was affirmed (although the fine was reduced). Id.
The clearing member paid the fine and did not pursue
an appeal with the CFTC. Id. The clearing member’s
futures customer had to reimburse the clearing member
for the fine due to the contractual obligation between
them. Id. at *2. That customer, who was not a party to
the underling action resulting in the fine, appealed to
the CFTC. Id. at *1. The CFTC treated the customer’s
request as a motion to intervene. Id. at *1 & n. 3. 5 The
CFTC found that “[i]ntervention after an initial decision
for the purposes of taking an appeal is appropriate in some
circumstances.” Id. at *2. However, the party moving to
intervene must have a protectable interest—that is, there
must be a “direct, significant, legally protectable interest
in the property or transaction that is the subject of the
action,” the interest requirement is not satisfied where
a holding will not “directly alter contractual or other
legally protectable rights of the proposed intervenors.” Id.
Thus, for the futures customer in Paribas, even though
the underlying adverse decision ultimately resulted in
a substantial financial expense, the intervention was
improper because such expense was not compelled by
the decision but rather arose out of separate contractual
relations between the customer and the clearing member.
Id. While the futures customer was unsuccessful in its
5. In particular, the CFTC treated the request as a motion
to intervene under 17 C.F.R. § 9.5(a), which provides that “[a]n
application for a form of relief not otherwise specifically provided
for in this part must be made by a written motion.” Paribas Futures,
Inc., 1990 WL 282868, at *1 & n.3.

40a
Appendix B
attempt to intervene on appeal, Paribas suggests that,
in general, someone who is not a party to the underlying
disciplinary action may appeal to the CFTC. Id.
A third option that one might pursue to obtain a review
by the CFTC is to ask the CFTC to waive its rules. The
regulation dealing with waiver of rules provides that
“[t]o prevent undue hardship on any party or for other
good cause shown, the Commission may waive any rule in
this part in a particular case and may order proceedings in
accordance with its direction.” 17 C.F.R. § 171.14 (emphasis
added). The regulation further provides that such an order
must be based “upon a determination that no party will
be prejudiced thereby and that the ends of justice will be
served.” Id. In short, under this regulation, the CFTC may
waive its rules in extraordinary circumstances. See id.
The CFTC’s decision in In re Petition of Lake Shore
Alternative Financial Asset Ltd., No. CRAA-07-03, 2007
WL 2751884 (C.F.T.C. Sept. 17, 2007), demonstrates how
the waiver operates. In that case, the NFA issued a notice
regarding a member responsibility action against Sentinel
Management Group, Inc. (“Sentinel”), barring Sentinel
from disposing of any assets held on behalf of certain
accounts, including making disbursements to its existing
customers, without prior approval. Id. at *1. Sentinel did
not petition to stay the action. Id. However, another entity,
Lake Shore Alternative Financial Asset Ltd. (“Lake
Shore”), that was not subject to the member responsibility
action by the NFA petitioned the CFTC for such a stay.
Id. Lake Shore argued that the NFA’s action amounted to
an improper freezing of assets, as it effectively prevented

41a
Appendix B
Lake Shore from accessing its own assets. Id. Under the
pertinent CFTC regulation only a “party aggrieved by
the [NFA’s] determination that the [member responsibility
action] should be effective prior to the opportunity for a
hearing” could petition to stay such an action. Id. at *2
(quoting 17 C.F.R. § 171.41(a)) (emphasis added). Because
Lake Shore was not the subject of the NFA’s action, the
only avenue available for it to become a “party” was to
intervene in the proceeding. Id. For reasons not germane
to the present discussion, however, Lake Shore could not
intervene in the action under § 171.27. Id. Yet the CFTC’s
analysis of Lake Shore’s petition did not stop there—the
CFTC proceeded to analyze whether Lake Shore’s petition
would warrant a waiver under § 171.14. Id. The CFTC held
that a person requesting a waiver has a heavy burden.
Id. Lake Shore failed to meet that burden because the
lack of access to assets was contemplated by the member
responsibility actions scheme and thus was not an undue
hardship; allowing a stay at the request of Lake Shore
was adverse to the NFA’s and the public’s interests as it
created a possibility that the NFA action would be stayed
indefinitely; and Lake Shore had not shown any other good
cause to waive the rules. Id. at *2-3. Therefore, while Lake
Shore was ultimately unsuccessful, the case demonstrates
the availability of § 171.14 as an alternative option to seek
CFTC review, even in the situations where intervention
under § 171.27 is not available.
The CFTC not only reviews the NFA’s actions in
particular cases, it also oversees the NFA’s rules. 6
6. In their response to the motion to dismiss, Plaintiffs state
that they are not arguing that the NFA’s rules are inadequate and

42a
Appendix B
For example, 7 U.S.C. § 21(a) states that to become a
registered futures association, an association must file
with the CFTC “for review and approval” a registration
statement, which sets forth, among other things, the rules
of the association. Furthermore, the provision governing
standards for registration provides that “[a]n applicant
association shall not be registered as a futures association
unless the Commission finds, under standards established
by the Commission,” that “the rules of the association
provide a fair and orderly procedure with respect to
the disciplining of members and persons associated with
members and the denial of membership to any person
seeking membership therein or the barring of any person
from being associated with a member.” 7 U.S.C. § 21 (b)
(9) (emphasis added). One of the ways the CFTC can
enforce the fairness of the NFA’s rules and procedures
is provided in 7 U.S.C. § 21(i)(1), which states that in
reviewing “a final disciplinary action taken by a registered
futures association against a member thereof or a person
associated with a member,” the CFTC evaluates, among
other things, whether the association rules “are, and were
applied in a manner, consistent with the purposes” of the
Commodity Exchange Act. See 7 U.S.C. § 21(i)(1)(A)(iii).
If the CFTC does not make such a finding, the CFTC may
set aside the sanction imposed by the association and, if
should be changed. (See Pls.’ Am. Resp. in Opp’n to Defs.’ Mot.
to Dismiss at 21 n.28, Dkt. No. 72.) However, in their complaint,
Plaintiffs allege that “[i]n violation of the due process clause, NFA
has failed to adopt notice and hearing provisions or procedures to
intervene, and has failed to provide a post-deprivation remedy for
non-members such as Effex and Dittami.” (Am. Compl. ¶ 110, Dkt.
No. 45.)

43a
Appendix B
appropriate, remand the case to the association for further
proceedings. 7 U.S.C. § 21(i)(1)(B).
Furthermore, 7 U.S.C. § 21( j) obligates every
registered futures association to file with the CFTC
copies of any changes in or additions to the rules of the
association—the CFTC might disapprove such rules if
they are inconsistent with the requirements governing
registered futures associations. Id. The CFTC also
has authority to abrogate any rule of the association
if, “it appears to the Commission that such abrogation
is necessary or appropriate to assure fair dealing
by the members of such association, to assure a fair
representation of its members in the administration of its
affairs or effectuate the purposes of this section.” 7 U.S.C.
§ 21(k)(1). The CFTC can also request that any registered
futures association adopt any specified alteration or
supplement to its rules; if the association fails to adopt
such alteration or supplement within a reasonable time,
the Commission is authorized to alter or supplement
the rules by order. 7 U.S.C. § 21(k)(2). And under the
Administrative Procedure Act, an agency has to “give an
interested person the right to petition for the issuance,
amendment, or repeal of a rule.” 5 U.S.C. § 553(e).
Therefore, the statutes and the CFTC’s regulations
set out several potential avenues for Plaintiffs to pursue
CFTC review of the NFA’s action (and rules) here.7 But
7. CFTC determinations regarding NFA actions are reviewable
by a federal appellate court. See 7 U.S.C. § 21(i)(4) (“Any person
aggrieved by a final order of the Commission entered under this
subsection may file a petition for review with a United States court
of appeals in the same manner as provided in section 9 of this title.”).

44a
Appendix B
Plaintiffs have not pursued any of those options. Instead,
they offer the following reasons why their action should
proceed in this Court.
First, Plaintiffs argue that there is no requirement
for them to exhaust administrative remedies in the
present case because they are not challenging the actual
disciplinary action taken by the NFA—instead, they
are challenging the NFA’s dissemination of false and
misleading information, which is outside of the CFTC’s
jurisdiction. For this argument, Plaintiffs rely on an
unpublished decision from the Second Circuit, SantosBuch v. Financial Industry Regulatory Authority,
Inc., 591 F. App’x 32 (2d Cir. 2015), which they view as
holding that a party must challenge a disciplinary action
to be eligible for review under the substantively identical
provision of the Securities Exchange Act of 1934.
In Santos-Buch, the plaintiff resolved through a
settlement the disciplinary proceedings against him
initiated by a subsidiary of the National Association of
Securities Dealers, Inc. (“NASD”), a self-regulatory
organization under the Securities Exchange Act. Id. at
32. The settlement agreement contemplated a public
notice of the disciplinary action, which was allegedly
limited by then-existing rules that provided for only
a one-time publication of the disciplinary action. Id.
Sometime later, the Financial Industry Regulatory
Authority Inc. (“FINRA”) succeeded the NASD and
assumed its self-regulatory functions; the Securities
and Exchange Commission (“SEC”) was charged with
reviewing FINRA’s actions and rules. Id. at 32-33.

45a
Appendix B
FINRA published the plaintiff’s disciplinary records in
several internet databases, one of which was maintained
without authorization by any rule. Id. at 33. The plaintiff
brought an action arguing that such publication was done
without authorization and in violation of the Due Process
Clause of the Fifth Amendment. The Second Circuit held
that the plaintiff’s claims for injunctive and declaratory
relief were not subject to the Securities Exchange Act’s
exhaustion requirement because they challenged neither
the disciplinary action taken by FINRA nor a FINRA
rule, although the claims still had to be dismissed because
FINRA was not a state actor and so the plaintiff had failed
to allege a claim for violation of his due process rights.
Id. at 34.
Notably, Santos-Buch is an unpublished opinion from
a different circuit—thus, it is not controlling authority for
this Court. Moreover, the plaintiff in Santos-Buch simply
challenged the act of publication of the disciplinary action
itself, not the contents of the disciplinary action or anything
else related to the substance of the action. Hence, in the
Second Circuit’s view, the plaintiff’s challenge plainly fell
outside of the SEC’s authority to review FINRA’s actions.
See, e.g., 15 U.S.C. § 78s(d)(2) (authorizing review of selfregulatory organizations’ actions that require notice
under § 78s(d)(1), including final disciplinary actions).
But here, Plaintiffs’ claims also touch on the contents
of the NFA Publications—documents generated as a
result of the NFA investigation relating to a disciplinary
action. Moreover, in their complaint, Plaintiffs allege that
“[i]n violation of the due process clause, NFA has failed
to adopt notice and hearing provisions or procedures to

46a
Appendix B
intervene, and has failed to provide a post-deprivation
remedy for non-members such as Effex and Dittami.”
(Am. Compl. ¶ 110 (emphasis added), Dkt. No. 45.) Thus,
despite their protestations, it appears that Plaintiffs are
in fact contesting both the underlying decision of a selfregulatory organization and its rules.
Second, Plaintiffs argue that they cannot pursue
an appeal pursuant to 7 U.S.C. § 21(h)(2) because they
are not “aggrieved persons” within the meaning of the
statute, as “aggrieved persons” do not include non-parties
and Plaintiffs cannot become parties by intervening on
appeal without showing a public purpose.8 Plaintiffs do not
explain why their intervention would not serve a public
purpose, however. (See Pls.’ Am. Resp. in Opp’n to Defs.’
Mot. to Dismiss at 20, Dkt. No. 72.) This argument is
particularly surprising, considering that in their briefing
for the motion for a preliminary injunction, Plaintiffs raise
a variety of public purpose arguments. (See Pls.’ Mem. of
Law in Further Supp. of Its Application for Prelim. Inj. at
19, Dkt. No. 68.) Moreover, this argument does not account
for the possibility of Plaintiffs seeking a waiver of CFTC
rules under 17 C.F.R. § 171.14.
Third, Plaintiffs contend that any appeal would be
futile. In particular, Plaintiffs claim that due process
claims are beyond the scope of administrative review and
therefore the administrative exhaustion requirement does
not apply. Although due process claims do not usually
8. Plaintiffs appear to be referring to 17 C.F.R. § 171.27(a),
which states that a motion to intervene has to show why participation
in the proceeding “would serve the public interest.”

47a
Appendix B
require exhaustion because administrative agencies
typically cannot adjudicate constitutional issues, the
exhaustion requirement nonetheless applies when the
claim involves procedural errors correctable by the
administrative tribunal. See Mojsilovic v. I.N.S., 156
F.3d 743, 748 (7th Cir. 1998). Moreover, a plaintiff “with
a statutory argument that has a reasonable prospect
of affording him relief may not skip the administrative
process and go straight to federal court by simply
reconstituting his claim as constitutional and claiming
futility.” See Gonzalez v. O’Connell, 355 F.3d 1010, 1018
(7th Cir. 2004).
Here, the statute governing registered futures
associations requires that “the rules of the association
provide a fair and orderly procedure with respect to the
disciplining of members.” 7 U.S.C. § 21(b)(9). Plaintiffs
allege that they “were denied due process because they
did not receive an opportunity to be heard at a postdeprivation name clearing hearing or any other type of
hearing or appeal following the injury to the protected
liberty and property interests” and ask for injunctive
relief to remove the NFA Publications from the NFA’s
website or, in the alternative, to provide a name clearing
hearing, or delete all references to Plaintiffs from the
NFA Publications, and issue a new release clearing
Plaintiffs’ names.9 (Am. Compl. ¶¶ 114, 117, Dkt. No. 45.)
Yet Plaintiffs fail to explain why they should forgo the
step of raising their claims based upon purportedly unfair
9. Plaintiffs also ask for monetary damages to redress the due
process violation. (Am. Compl. ¶¶ 118-25, Dkt. No. 45.)

48a
Appendix B
NFA procedures to the CFTC. See, e.g., Presidential
Futures, Inc. v. NFA, No. CRAA-89-2, 1992 WL 15694,
at *4, *9 (C.F.T.C. Jan. 23, 1992) (finding that the NFA
failed to observe fundamental fairness by not providing
the petitioning member with sufficient notice and a
meaningful hearing). And Plaintiffs also fail to explain
why the NFA’s allegedly false findings as reflected in the
NFA Publications, which were made in the course of an
NFA disciplinary adjudication, could not be corrected
via CFTC review before proceeding with the due process
claims in a federal court.
Plaintiffs instead contend that such an appeal would
be futile because the CFTC does not review NFA’s
settlements. But this does not seem to be the case—while
there might not be many instances where settled actions
reach the CFTC for review, the CFTC does not appear
to have a categorical rule barring such review and indeed
has reviewed such actions. See, e.g., Grandview Holding
Corp., et al. v. Nat’l Futures Ass’n, No. CRAA-96-1, 1997
WL 119994 (C.F.T.C. 1997) (hearing an appeal on the issue
of whether a settlement offer can be withdrawn). Plaintiffs
cite no statutory provision or regulation for their position
to the contrary but instead rely on American Financial
Trading Corp. v. National Futures Organization, No.
CRAA 06-01 (C.F.T.C. 2006). And it is unclear why
Plaintiffs believe that the American Financial decision
stands for the proposition that the CFTC does not review
settlements. In that case, the CFTC simply held that a
decision by the NFA to place an entity that had settled
a disciplinary action on a list of disciplined firms was a
ministerial action and not a “disciplinary action” or other

49a
Appendix B
event that the CFTC has jurisdiction to review, and that
such action did not warrant a waiver of CFTC rules under
17 C.F.R. § 171.14. Id.
Plaintiffs next argue that an appeal to the CFTC
would be futile because “it is incomprehensible that [the]
NFA, after failing to allow Plaintiffs to participate in
the actual investigation . . . , would permit Plaintiffs to
intervene post-settlement.” (See Pls.’ Am. Resp. in Opp’n
to Defs.’ Mot. to Dismiss at 22, Dkt. No. 72.) Plaintiffs fail
to explain, however, why the NFA would have to permit
them to intervene, as the CFTC is the decision-maker
regarding intervention for purposes of an appeal. See,
e.g., 17 C.F.R. § 171.27(a).
Plaintiffs’ final futility argument rests on the
assertion that it would be impossible for them to adjudicate
any appeal because they were not privy to any of the
underlying documents or testimony and therefore do
not possess the records necessary to file, much less to
pursue, an appeal or review. But Plaintiffs’ complaint
mainly stems from the NFA Publications, which Plaintiffs
already have. And Plaintiffs do not explain why the lack of
other documents or testimony from the NFA’s disciplinary
proceedings would prevent them from asking for CFTC
review. Furthermore, CFTC regulations governing
appeals provide that “[w]ithin thirty days after service
of a notice of appeal, the National Futures Association
shall file with the Proceedings Clerk two copies of the
record of the proceeding” and “shall serve on the party
appealing, in lieu of the record, a copy of the index of
the record and a copy of any document in the record not

50a
Appendix B
previously served on the party appealing.” 17 C.F.R.
§ 171.24. The regulations also provide that “[i]f the party
appealing objects to the materials included or excluded in
preparing the record, he shall file his objections with his
brief on appeal” and the CFTC then “may, at any time,
direct that an omission or misstatement be corrected and,
if necessary, that a supplemental record be prepared and
filed.” Id. Hence, the Court does not find this argument
persuasive either.
CONCLUSION
In sum, the Court concludes that Plaintiffs should
have exhausted their administrative remedies prior to
filing this lawsuit. Having not done so, their case must
be dismissed.10 The dismissal is without prejudice to
Plaintiffs pursuing their administrative remedies and
then seeking review of their properly exhausted claims in
the appropriate federal court. Accordingly, Defendants’
motion to dismiss Plaintiffs’ amended complaint (Dkt. No.
58) is granted and Plaintiff’s motion for a preliminary
injunction (Dkt. No. 7) is denied as moot.

10. As indicated earlier, the exhaustion requirement here is
likely jurisdictional and thus the Court does not have jurisdiction
to rule on Plaintiffs’ motion for preliminary injunction. But even if
the exhaustion requirement were not jurisdictional, the existence
of a meritorious defense would of course prevent Plaintiffs from
demonstrating some likelihood of success on the merits, as required
for preliminary injunctive relief. See Girl Scouts of Manitou Council,
Inc. v. Girl Scouts of U.S. of Am., Inc., 549 F.3d 1079, 1086 (7th Cir.
2008).

51a
Appendix B
ENTERED:
/s/ Andrea R. Wood		
Andrea R. Wood
United States District Judge
Dated: April 5, 2018

52a
AppendixOF
C REHEARING of
Appendix C — DENIAL
the united states court of appeals
FOR THE SEVENTH CIRCUIT, FILED
OCTOBER 2, 2019
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 18-1914
EFFEX CAPITAL, LLC, et al.,
Plaintiffs-Appellants,
v.
NATIONAL FUTURES ASSOCIATION, et al.,
Defendants-Appellees.
October 2, 2019
Before
JOEL M. FLAUM, Circuit Judge
KENNETH F. RIPPLE, Circuit Judge
DANIEL A. MANION, Circuit Judge
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division
No. 1:17-cv-04245
Andrea R. Wood, Judge.

53a
Appendix C
ORDER
Upon consideration of Plaintiffs-Appellants’ petition
for rehearing en banc filed on September 17, 2019, no
judge in active service has requested a vote thereon, and
the judges on the original panel have voted to deny the
petition.
IT IS ORDERED that the petition for rehearing en
banc is hereby DENIED.

